<html>
<title> - DISCUSSION DRAFT ENTITLED THE ``WILDFIRE BUDGETING, RESPONSE, AND FOREST MANAGEMENT ACT OF 2016''</title>
<body><pre>[Senate Hearing 114-503]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-503

   DISCUSSION DRAFT ENTITLED THE ``WILDFIRE BUDGETING, RESPONSE, AND 
                    FOREST MANAGEMENT ACT OF 2016''

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2016
                               __________




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-993                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, Jr., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
  Lucy Murfitt, Senior Counsel and Public Lands and Natural Resources 
                                Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Bonnie, Robert, Under Secretary for Natural Resources and 
  Environment, U.S. Department of Agriculture....................    12
Rice, Bryan, Director, Office of Wildland Fire, U.S. Department 
  of the Interior................................................    23
Goldmark, Dr. Peter, Commissioner of Public Lands, Washington 
  State Department of Natural Resources..........................    47
Altemus, Julia, Executive Director, Montana Wood Products 
  Association....................................................    51
Humphries, Becky, Chief Conservation Officer, National Wild 
  Turkey Federation..............................................    60
Nelson, Peter, Senior Policy Advisor for Federal Lands, Defenders 
  of
  Wildlife.......................................................    70
Nichols, Eric, Partner, Alcan Forest Products and Evergreen 
  Timber.........................................................    80
Pimlott, Ken, Director, California Department of Forestry and 
  Fire Protection................................................    86

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alaska Forest Association:
    Statement for the Record.....................................   195
    Letter to Mr. Earl Stewart dated February 22, 2016...........   201
    Ketchikan Chamber of Commerce Presentation...................   216
Alaska Miners Association:
    Letter for the Record........................................   231
    Letter to Mr. Forrest Cole, Forest Supervisor, Tongass 
      National Forest, dated May 13, 2013........................   232
Alaska State Chamber of Commerce:
    Letter for the Record........................................   237
Altemus, Julia:
    Opening Statement............................................    51
    Written Testimony............................................    53
    Responses to Questions for the Record........................   178
Barrasso, Hon. John:
    Written Statement............................................   238
Bonnie, Robert:
    Opening Statement............................................    12
    Written Testimony............................................    15
    Responses to Questions for the Record........................   150
Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Chart entitled ``National Prioritization of Hazardous Fuel 
      Treatment Areas''..........................................     5
    Chart entitled ``Recent Highest Cost, Loss, and/or Damage 
      Forest Fires in Relation to Native Ponderosa Pine 
      Distribution (2000-2014)''.................................     7
    Chart entitled ``Timber Impacts Broken Out by State''........    11
City of Craig, Alaska:
    Letter for the Record........................................   240
City of Ketchikan, Alaska:
    Letter and Resolution No. 16-2622 for the Record.............   241
Coose, Dick:
    Letter for the Record........................................   244
Daines, Hon. Steve:
    Map entitled ``Lands Suitable for Timber Management, Flathead 
      National Forest''..........................................    36
Discussion Draft entitled the ``Wildfire Budgeting, Response, and 
  Forest Management Act of 2016''................................   108
DuRette, Butch and Jackie:
    Letter for the Record........................................   245
First Things First Alaska Foundation:
    Letter for the Record........................................   246
Goldmark, Dr. Peter:
    Opening Statement............................................    47
    Written Testimony............................................    49
    Response to Questions for the Record.........................   177
Hardwood Federation:
    Letter for the Record........................................   247
Heatherdale Resources Ltd.:
    Letter for the Record........................................   249
Humphries, Becky:
    Opening Statement............................................    60
    Written Testimony............................................    62
    Responses to Questions for the Record........................   180
Josephson, Brenda:
    Letter for the Record........................................   250
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
    Letter to Secretary Thomas Vilsack, U.S. Department of 
      Agriculture, dated July 1, 2010............................   251
National Association of State Foresters:
     Letter for the Record.......................................   256
National Parks Conservation Association:
    Letter for the Record........................................   258
National Water Resources Association, et al.:
    Letter for the Record........................................   261
Nelson, Peter:
    Opening Statement............................................    70
    Written Testimony............................................    72
    Responses to Questions for the Record........................   181
Nichols, Eric:
    Opening Statement............................................    80
    Written Testimony............................................    82
    Responses to Questions for the Record........................   182
Pimlott, Ken:
    Opening Statement............................................    86
    Written Testimony............................................    88
    Chart entitled ``Tree Mortality, Northern Fresno County''....   103
    Responses to Questions for the Record........................   193
Resource Development Council for Alaska, Inc.:
    Letter for the Record........................................   264
Rice, Bryan:
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................   167
Sivertsen, Bob:
    Letter for the Record........................................   265
Society of American Foresters:
    Letter for the Record........................................   266
Southeast Conference:
    Letter for the Record........................................   269
U.S. Senate (Senators Enzi, Wyden, Murkowski, Cantwell, Crapo, 
  McCain, Flake, Barrasso, Merkley, Daines and Tester):
    Colloquy on Wildfire Funding dated August 6, 2015............   270

 
   DISCUSSION DRAFT ENTITLED THE ``WILDFIRE BUDGETING, RESPONSE, AND 
                    FOREST MANAGEMENT ACT OF 2016''

                              ----------                              


                        THURSDAY, JUNE 23, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are meeting this morning to receive testimony on the 
legislative discussion draft entitled, ``Wildfire Budgeting, 
Response, and Management Act of 2016.''
    I want to thank those who joined Ranking Member Cantwell 
and me to release this draft on May 25th. Senator Wyden, you 
and Senator Crapo have been working on the wildfire issue for a 
very long time. We thank you for your leadership. Senator Risch 
joined us too. So we have had a good, strong team with this 
draft. We have taken public comments on it, and we are taking 
the next step today because I think we recognize we face some 
serious challenges in an area that needs to be addressed.
    People across the country are realizing that wildfires are 
a growing crisis. We certainly know in Alaska the devastation 
that wildfires bring to our state. About half of the ten 
million acres that burned last year were in Alaska. We have 
already seen over 200 fires this season alone, so there is a 
recognition that it is a real problem. It is a growing problem, 
and resolving it will require a comprehensive approach that 
addresses both wildfire funding and forest management. We need 
to do both at once because we know the wildfire problem is not 
just a budgeting problem. It is also a management problem.
    I have worked through the Appropriations process to provide 
temporary fixes to ensure that our firefighters and forest 
managers have the resources that they need. I added $1.6 
billion for wildfire suppression to last year's Omnibus, $600 
million above the average cost over the past ten years, likely 
enough to prevent fire borrowing this year.
    Last year's bill also included targeted increases in 
hazardous fuels reduction and timber programs that will help 
mitigate wildfire hazards and keep our forested rural economies 
going.
    It was close to two weeks ago that we reported the Interior 
Appropriations bill for the next fiscal year. It, again, 
includes full funding for wildfire suppression as well as a 
substantial commitment to prevention and forest management 
efforts. I am proud of that work, but I will also be among the 
first to say that our yearly appropriations bills are just 
temporary solutions. They get us from one year to the next, 
designed to hold us over as we develop longer-term solutions.
    Our draft bill includes a fiscally responsible fix to 
permanently end the destructive practice of fire borrowing. 
This is where agencies raid non-fire programs like recreation, 
wildlife and timber to pay for firefighting. Our fix requires 
Congress to provide resources to the agencies up front, enough 
to cover 100 percent of the average annual cost of firefighting 
over the past ten years while allowing for a limited cap 
adjustment in those truly catastrophic fire years.
    In low fire years, we allow the agencies to invest left 
over suppression funds in prevention projects.
    Ending fire borrowing is something that members on and off 
the Committee have called for, so this is not just a Western 
issue. Just this week Senator Schumer complained that fire 
borrowing takes federal dollars away from efforts to fight the 
emerald ash borer and other invasive species in New York. Under 
Secretary Bonnie told this Committee last year that fire 
borrowing has significant and lasting impacts across the entire 
Forest Service, not to mention its negative impacts on local 
businesses and economies.
    Yet despite widespread agreement that we need to end this 
unsustainable practice, the Administration is not yet willing 
to embrace our bipartisan proposal to do just that. Instead, it 
insists that Congress should fund just 70 percent of the ten-
year average of suppression costs. A proposed cap adjustment 
would pay for the rest as well as any costs above the ten-year 
average. Congress has rejected this idea every year that it has 
been proposed.
    The Administration claims that it will use the difference 
between 70 percent and 100 percent for forest restoration and 
other measures that allow you to get ahead of the problem, but 
regrettably, the President's budget request for the Forest 
Service simply does not bear this out. Using the 70/30 split, 
the Forest Service would move about $273 million off budget 
next year, but the Administration does not seek to plus up 
wildland preparedness or vegetation management. Those accounts 
are flat. It did not seek to increase forest health management 
on federal lands. That request is actually down. Both the 
National Forest System budget and the Forest Service overall 
budgets are down. This just does not comport with the reality 
here.
    You can begin to see why wildfires are also a management 
problem. Healthy, resilient forests are fire resistant forests, 
yet despite knowing the value of fuel reduction treatments in 
mitigating wildfire risks, increasing firefighter safety and 
restoring the health of our forests, active management is still 
often met with a series of discouraging and sometimes 
insurmountable obstacles.
    High up-front costs, long planning horizons and difficult 
regulatory requirements are impeding our ability to implement 
treatments at the pace and scale that wildfires are occurring. 
Our discussion draft would take steps to reduce these hurdles 
without abandoning important environmental protections by 
building on authorities within the existing Healthy Forest 
Restoration Act.
    We focus and expedite environmental reviews by limiting the 
number of alternatives that need to be analyzed for 
collaboratively developed projects, including those contained 
in community wildfire protection plans.
    Our bill also pilots a new emergency environmental 
assessment for native ponderosa pine forests which are highly 
susceptible to burning, in order to reduce the risk of the 
large, destructive and expensive wildfires that are, 
unfortunately, becoming the norm.
    Addressing the management problem would not be complete 
without attention to our nation's largest national forest, and 
that is the Tongass in Southeast Alaska. When it comes to the 
Tongass, I think we recognize that there is not always going to 
be agreement. But I hope that we can at least agree that that 
transition to a program focused on predominately young growth 
timber needs to be real and not just something that looks good 
on paper.
    The Forest Service needs to do what is right and undertake 
what the Tongass Advisory Committee, the TAC, called for in its 
recommendations. They called for a comprehensive, stand level 
inventory to address the uncertainties that exist in the 
supply, volume and timing of the available young growth to 
support a transition.
    On January 21 of this year the TAC reiterated the 
importance of an inventory calling it the number one priority 
investment, because modeling is not good enough for a clear 
picture of when young growth will come online. A successful 
transition will only be possible if it is grounded in strong 
science and backed by comprehensive data. The point of our 
Tongass provision in this draft is not to delay the transition 
that is already underway but to allow for a meaningful 
inventory to take place before the land plan is amended.
    The last thing that I want to highlight is our emphasis on 
federal engagement with state and local fire agencies and other 
partners. This is critical to mitigate risk to communities and 
to manage and respond to wildfires. The investments we 
authorize will help communities become fire adapted which is an 
important piece of the solution to escalating wildfire 
suppression costs in the Wildland Urban Interface.
    I would like to close by thanking my colleagues for working 
with us on this discussion draft. I intend to advance it to the 
Senate floor as soon as possible, and I would hope that members 
of our Committee will recognize what is at stake here and join 
me in the effort.
    With that, I turn to Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair and thank you for 
having this hearing this morning. I think this is a culmination 
this morning of a lot of hard work on this discussion draft, 
more than two years, and if you include the work by our 
predecessors, probably two or three more years before that. I 
am so glad that our colleagues, Senator Wyden and Senator 
Stabenow, are both here because of the roles that they have 
played on this issue as well.
    I, too, could start with some statistics. Last year, ten 
million acres burned, 4,600 houses were destroyed, and 
obviously, we very sadly observed fatalities with our 
firefighters.
    We are going to hear from Commissioner Goldmark, who is 
here from our state. He is going to tell us in more detail 
about all of that, but I appreciate him being on the second 
panel.
    Instead of going over more statistics, I would like to 
spend some time talking about what I think we should do to 
reduce the risk, reduce the intensity and reduce the cost.
    Scientists are telling us that these seasons, these fire 
seasons, are both longer and hotter. An April report from 
Headwaters Economics said that a one-degree increase in 
temperature change, one degree, results in a doubling of 
firefighting costs, a 25-percent increase in the number of 
wildland fires and a 35-percent increase in the number of acres 
burned. So just one-degree of temperature change will make our 
national fire problems even more complex.
    I believe we must effectively address the root cause of the 
problems with fire risk and fire budgeting. If this is the new 
normal, we need better strategies to deal with the problem. I 
am glad that Under Secretary Bonnie and Mr. Rice are here to 
talk about some of those strategies today, because I do not 
think the temperature change we are seeing is going to stop. I 
think we are going to have continued risk.
    Our efforts need to be guided by scientists, and the 
science is telling us that we need policies that will make our 
at-risk forests more resilient to fires and keep our 
firefighters safer and protect our western communities from the 
impacts of wildfire. We have seen the huge economic impacts of 
this in the last couple of years with the Colville Tribes alone 
losing over $0.5 billion of timber revenue.
    The Director of CAL Fire will be joining us on the second 
panel, and Chief Pimlott's testimony discusses at length the 
need to treat the fuels that have built up on national forests. 
The discussion draft includes a Pine Pilot, as the Chair said, 
and I think it is a key provision that any Western Senator 
should be interested in.
    As part of this, I say federal land management agencies 
need a new strategy for firefighting. They need the tools to 
complete their jobs. We need to be proactive in reducing fire 
risk, and the discussion draft today contains a number of tools 
for doing that.
    I want to talk about the Pine Pilot in specific. That 
section directs the agencies to focus their efforts in areas 
that are most at risk. We have printed out a couple of charts 
that hopefully we can show to people that this science is built 
on.
    The Forest Service, as you can see, has ranked the 
different parts of the national forest based on fire risk. The 
most at-risk are in the red areas.
    [The information referred to follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
     
    The next chart was made by the former head of wildfire 
management for the Forest Service. He published in academic 
papers the close correlation between ponderosa pine forests and 
the large fires that we've been experiencing.
    [The information referred to follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Scientists are telling us that restoring the health of the 
ponderosa pine forest, through thinning and prescribed fire, is 
the best way, most effective way, to deal with this issue. 
After merging these two maps, the result that we have 
identified is about two million acres that we want the Forest 
Service to place a priority on treating. These two million 
acres are simultaneously the most at-risk for fire, the place 
that projects have the largest impact in reducing fuels and the 
places that are best supported by the science and the public.
    In this pilot we would provide the tools to the agency, 
such as long-term contracts to individual mills and preferences 
for cross-laminated timber, so that we are actually securing 
more sustainable buildings. These tools will help us get this 
work done and will help us in, I believe, a much more proactive 
discussion than the discussion that happens after the fire.
    We need to do fuel reduction in the places that make the 
most sense. Implementing this program would change the fire 
risk to our most vulnerable forests. The science is showing 
that it can happen and there is actually video on the web that 
proves it.
    The Spokane Tribe just recently published a video of their 
recent fuel treatment and how it fared last year in the 
Carpenter Road fire. I recommend it to anybody who wants to 
look at that. In the Carpenter Road fire, the fuel treatment 
was effective. They actually installed time-lapse cameras in 
the pine forest where the fire burned through in the treated 
areas and untreated areas. The video shows compelling evidence 
of the value that this Pine Pilot could have to both BLM land 
and National Forest System land.
    More broadly, of course, there are other provisions of this 
bill that I think we also need to implement. But to me, with 
one-degree temperature change driving the challenge, this is 
the most important. The scientists are saying that this kind of 
investment actually reduces the size and severity of the fires. 
I think that that is what we need to try to target.
    Other provisions in the discussion draft include community 
preparedness, $600 million would be authorized to help at-risk 
communities. I know that my colleagues from the West understand 
this, but whether you are talking about Twisp or Wenatchee or 
the Yakama reservation, these communities are at-risk and they 
need help and support. We need to make sure that small 
communities who are on the front lines of fighting these fires 
have some immediate capital ready to do what we call hasty 
response.
    We also have a section in the draft requiring the use of a 
new technology--to deploy GPS and drones. Wildfire Today refers 
to this technology as the ``Holy Grail of firefighting.'' For 
the first time ever incident managers would be able to see, in 
real time, the location of the fire and their crews.
    Dozers and other equipment will be treated more communally; 
we will work together effectively ensuring that agencies use 
all the firefighting equipment available. That can do wonders 
in helping to engage in what has, again, been defined in 
Washington State by various entities as ``hasty response.''
    Last year, as I traveled through the state thinking that I 
was going to be reviewing the previous year's fire season, 
obviously as we know a huge new fire season opened up. 
Community after community, including a round table we held with 
Representative Cathy McMorris Rodgers, this issue could not 
have been clearer from my constituents. Work together 
cooperatively so that those on the front lines who have the 
tools to do some immediate response don't all of sudden get 
stopped at a property line. It does not make sense to hear DNR 
or Forest Service say you do not have the right to cross.
    Figure it out because there is so much capacity where 
people want to help and coordinate, and I know we can do it. I 
know our community came together in the aftermath of Oso and 
the Federal Government, the county government and the local 
government worked diligently to try to find those individuals 
impacted by a devastating landslide. I am sure that we can do 
the same in fighting our wildfires.
    The discussion draft also helps ensure communication 
infrastructure remains functioning during wildfire season. 
Again, this was an issue where emergency centers in communities 
have been activated but no broadband communication exists, no 
one can get access to emergency broadband equipment until the 
emergency is declared by the Governor or the President, which 
is like filing paperwork and sending it away for a month of 
deliberation. At that time they are still trying to 
communicate! We have to come up with plans to help and this 
draft includes them.
    Now I am ready to declare fire borrowing ``the great 
debate.'' This senator is agnostic as to how we solve it, but I 
do have a couple of principles in general.
    First, we cannot rob Peter to pay Paul. The Forest Service 
needs both the amount of money to fight the fires and they need 
the money dedicated to do fuel reduction. We have to produce a 
draft out of here, Madam Chair, that gives them the ability to 
do both.
    On the implementation of the pine forest, I would just say, 
Washington State invested $18 million in 2014 to rebuild salmon 
habitat, but most of it was burned up in 2015. So we need to 
have dedicated funds to protect our investments, the Federal 
Government's investments. We are going to deal with the fire 
problem.
    We have to have both dedicated funds to doing fuel 
reduction and dedicated funds to fighting the fires.
    Today firefighting constitutes 50 percent of the Forest 
Service budget and reports say that the proportion will go to 
67 percent over the next ten years. That means over $700 
million less for those non-fire accounts if we continue to try 
to solve it this way.
    I hope that we will all work together. I look forward to 
Under Secretary Bonnie's comments on how we are going to solve 
this because we are having a shift in temperature that demands 
a new response.
    Senator Murkowski and I have received a number of letters 
on this draft. A number of groups want more things included in 
the bill. I personally want a more robust controlled burn 
section. This is a very complex issue, and I know many of my 
constituents do not want to see smoke in their communities. We 
understand that, but trying to manage wildland fires in the 
dry, hot months of August is the wrong idea. We need the 
flexibility to do it in the wetter months of the Pacific 
Northwest, not when the fuel is so built up and our conditions 
are so dry. So we need to work together on that.
    A number of groups want draft provisions removed like the 
Tongass piece, and a number of groups have provided feedback on 
how to make sections more useful, like discussions on the Pine 
Pilot. All I know is that we have to come together to solve 
this issue.
    I appreciate so much, as I said, my colleagues here today. 
They have been working on this issue for several years as well 
and want to benefit so many impacted communities.
    I would like to submit also this chart that would show 
where the board feet of potential pine forest reductions would 
come from by state and so my colleagues could see this.
    [The information referred to follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    Senator Cantwell. This is not something, Madam Chair, that 
I come to easily. But I think this is a better path forward 
than the route we have been going: in the aftermath of a fire 
trying to decide what to do with salvaged logs.
    If the Federal Government is going to be spending between 
$2 and $3 billion a year on fighting fires because of the 
increasing risk, we need to do something to reduce the risk and 
I think this is a suggestion worth considering.
    Thank you.
    The Chairman. Thank you, Senator Cantwell, I appreciate the 
level of detail there.
    We will now turn to our first panel. We will have two 
panels this morning. I know that there is much to be put on the 
table, so we will proceed immediately to it.
    On the first panel we are joined by Mr. Robert Bonnie, who 
is the Under Secretary for Natural Resources and Environment 
for the U.S. Department of Agriculture, as well as Mr. Bryan 
Rice, who is the Director from the Office of Wildland Fire at 
the Department of the Interior.
    Gentlemen, welcome to the Committee. I must tell you that I 
was very disappointed that we did not receive your testimony 
until at least 11 o'clock last night. I think for colleagues 
that were quite anxious to see the direction and the comments 
of the Administration, to not be able to receive them until 
early this morning when folks came in, is unacceptable. You can 
do a heck of a lot better and I just need to start the hearing, 
unfortunately, with an admonishment that I think the Committee 
deserves a little more respect from the Administration in terms 
of your statements.
    With that, Mr. Bonnie, if you would proceed.

    STATEMENT OF ROBERT BONNIE, UNDER SECRETARY FOR NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Bonnie. Thank you.
    Chairwoman Murkowski, Ranking Member Cantwell and members 
of the Committee, thank you for having me here today and more 
importantly thank you for scheduling this hearing on an issue 
of such vital importance.
    Everything that the Forest Service does, everything, is 
being negatively impacted because of the ever growing 
proportion of the agency's budget spent fighting fire.
    Two decades ago the agency spent one-sixth of its budget on 
fire. Today it routinely spends more than half of its budget on 
firefighting.
    Non-fire staff in the agency has dropped by 39 percent 
since 1998, meaning we have fewer staff to restore forests, 
provide recreation, manage wildlife habitat, you name it.
    Investing in forest restoration is critical to addressing 
the wildfire threat. Since 2009 the Administration has 
increased the number of acres restored across the national 
forest through thinning, prescribed fire and other means. And 
by investing in collaboration and landscape scale management, 
we've increased timber production by 20 percent.
    Yet over the long term the agency won't be able to sustain 
these gains, much less further increase the number of acres we 
restore unless Congress fixes the fire budget.
    The good news is that there's broad agreement among diverse 
stakeholders, Republicans and Democrats, that this problem 
needs to be fixed. And while wildland fires might be thought of 
as a Western problem, the truth is that the budget impacts to 
the Forest Service are felt everywhere the agency works, East, 
West, North and South.
    Fixing the fire budget problem requires doing two things.
    First, we must end fire borrowing so that when the agency 
exhausts its fire suppression budget, as it does in most years, 
it doesn't have to transfer dollars from non-fire programs to 
fund firefighting. While Congress typically reimburses the 
agency for the transferred funds, fire borrowing, nonetheless, 
disrupts the agency's ability to get work done.
    The second problem, the growth of fire suppression 
expenditures and the erosion of the rest of the Forest Service 
budget, is actually far more debilitating to the agency than 
fire borrowing. Let me explain. By law the Forest Service has 
to fund fire suppression based on the average of suppression 
expenditures over the previous ten years. Yet the costs of 
firefighting are rising dramatically due to longer fire 
seasons, increased fuel loads and development into the Wildland 
Urban Interface. So every year the Forest Service must set 
aside more money for fire.
    Over each of the last two years the Forest Service has 
transferred more than $100 million from its non-fire programs 
to firefighting. That money wasn't borrowed. As long as fire 
costs keep rising, as they surely will, that money is 
permanently moved out of our non-fire programs and into 
firefighting.
    So if we want to restore forests to reduce the threat of 
catastrophic fire, we have to solve the second problem. If we 
want to increase recreational access or fix our $300 million 
backlog in trails, we have to solve it. If we want to address 
the 66 million dead trees we have standing in California right 
now, we have to solve this problem.
    The bipartisan Wildfire Disaster Funding Act solves both 
problems by allowing the Forest Service to access disaster 
funds when it spends 70 percent of its suppression budget. This 
both prevents fire transfers and allows the agency to invest 
additional resources in forest management.
    But there are other ways Congress could address the second 
issue as well by providing additional capacity to the agency. 
For example, you could cap the suppression budget at 100 
percent of 2015 levels and take the additional money that 
Congress has currently investing in firefighting and devote it 
to restoration or recreation or what have you.
    With a comprehensive budget fix the Administration could 
support efforts to provide the agency with additional forest 
management tools to increase the pace and scale of restoration. 
Such provisions should be built on collaboration among 
stakeholders and have strong environmental safeguards.
    The forest management provisions Congress passed in the 
2014 Farm bill struck the right balance and demonstrated it was 
possible to pass legislation with both forest, industry and 
conservation support.
    Finally, let me address the Tongass National Forest. For 
decades the Tongass has been mired in controversy. USDA and the 
Forest Service have invested in collaboration through the 
Tongass Advisory Committee in order to find a path forward that 
sustains the viable timber industry while transitioning away 
from old growth timber harvesting over the next 15 years. We 
oppose provisions delaying the amendment. Most importantly, I 
want to stress that we look forward to working with this 
Committee and others in Congress to put together a legislative 
package that fixes the fire budget and provides balanced tools 
to increase forest restoration and management.
    Thank you and I'm happy to answer any questions.
    [The prepared statement of Mr. Bonnie follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      The Chairman. Thank you, Mr. Bonnie.
    Mr. Rice, welcome.

  STATEMENT OF BRYAN RICE, DIRECTOR, OFFICE OF WILDLAND FIRE, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Rice. Good morning, Chairman Murkowski, Ranking Member 
Cantwell, members of the Committee. Thank you for the 
opportunity to come in today and provide the testimony from the 
Department of the Interior regarding the Wildfire Budgeting 
Response and Forest Management Act of 2016.
    For introduction, the Department of the Interior Office of 
Wildland Fire works with the bureaus within the department that 
have wildland fire responsibility and we provide the 
leadership, the oversight, focusing on budgets and policies 
that affects nearly 500 million acres across the Department of 
Interior's land base.
    We appropriate. We work closely with other federal 
agencies, states, tribes and our external partners as well as 
organizations to provide strategic leadership and support as 
well, focusing on the tenants of the cohesive strategy as well 
as implementation of Secretarial Order 3336, Rangeland Fire 
Management.
    The Department would like to express thanks to our partners 
in Congress for support for the Wildland Fire Resilience 
Landscapes program. That continued support is a critical step 
forward as we've recently received over 75 preproposals for 
this next year that has nearly $74 million of requests.
    This, on the heels of the 2015 fire season being the 
costliest on record and burning the most acres since we've been 
recording since 1960. And as in past fire seasons, the wildfire 
risks that we're seeing in this season is going to be highly 
dependent upon weather as well as other human factors.
    We're seeing cumulative impacts from climate change, 
drought, invasive species as well as our other factors and 
they're creating this landscape for more susceptibility to 
devastating wildfire.
    With an ever expanding Wildland Urban Interface and the 
inherent complexities associated with it, the need for 
partnerships is continuing to grow.
    We're also continuing to make proactive investments in 
fuels management and those resilient landscapes activities 
across the landscape to better address the growing impact of 
wildland fire on communities and the public lands.
    The resilient landscapes activity is coordinated with and 
supported by those resource management programs within the fire 
management bureaus of the Department of the Interior, the 
National Park Service, Bureau of Land Management, Fish and 
Wildlife Service as well as the Bureau of Indian Affairs. Those 
programs are also working in concert with tribes, states and 
other organizations that are involved.
    On another note that I'd like to highlight, the Department 
is showing leadership in providing training and job 
opportunities for our veterans that are coming back and wishing 
to continue their service in working in natural resources or 
other natural resource management programs. We're taking great 
pride in those men and women that are coming back to serve, and 
DOI's Bureau of Land Management has provided Wildfire 
Firefighter 1 and 2 training for over 400 veteran volunteers 
over the last year.
    In regards to the draft bill, the Department continues to 
support an approach to fixing the fire funding that ends 
transfers, recognizes that catastrophic fire is a natural 
disaster and ensures that our efforts to suppress those 
catastrophic fires does not diminish our efforts to create more 
resilient landscapes.
    The Department strongly opposes Section 201 in Title II as 
currently written and looks forward to working with the 
Committee to find language that identifies standards that meet 
the goals of overall safety, interoperability and efficiencies.
    The Department is also leading many activities focusing on 
UAS, unmanned aerial systems, that seek to provide firefighter 
and public safety while ensuring operations are continued and 
carried on. We have examples from 2014, 2015, most recently 
here in 2016 on the North fire in New Mexico where we have UASs 
that are providing real time mapping capabilities as well as 
infrared video.
    In regards to the last title and focusing on some of the 
other land management activities, the Department is focused on 
ensuring strong environmental safeguards are maintained and to 
further support increased resilience in landscape across the 
DOI Bureaus.
    In closing, the Department of the Interior works closely 
with our federal, tribal, state and local partners and last, we 
will continue to improve interagency forest and rangeland 
management while importantly upholding our trust 
responsibilities.
    This concludes my statement and I'll be happy to answer any 
questions.
    Thank you.
    [The prepared statement of Mr. Rice follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    
    The Chairman. Thank you, Mr. Rice.
    We will begin with a round of questions. Let me begin with 
you, Mr. Bonnie.
    I want to start with the Tongass inventory because I will 
tell you, I am quite disturbed by the statement in your written 
testimony. You, kind of, glossed over it in your oral remarks 
here this morning, but you make a statement that says that the 
requirement for inventory would be, ``contrary to the 
recommendations of the Tongass Advisory Committee, as well as 
causing an unnecessary delay.''
    I am really stunned by that statement. When you look to 
Forest Service's own website, when you talk about the Tongass 
inventory and the plan amendment, you, on your website, say an 
inventory is needed to address the uncertainties. The plan 
amendment needs to have credible information to accurately 
predict the timing and supply of young growth. This can only be 
obtained by a comprehensive stand level inventory.
    The statement from the Secretary in the July 2013 
Secretarial Memo emphasizes that the transition must take place 
in a way that preserves a viable timber industry that provides 
jobs and opportunities for residents of Southeast Alaska. We 
all agree on that.
    On January 21, the TAC said there are a number of 
investments that need to be made. The number one priority 
investment is a forest inventory because modeling is not good 
enough for a clear picture of when young growth will come 
online during the next 15-year period. So for you to say that 
this is contrary to the recommendations of the TAC just does 
not comport with what the TAC has said and said very, very 
clearly, as well as what you have on your own website and the 
Secretary's own memorandum.
    What's up?
    Mr. Bonnie. So we are carrying out an inventory right now, 
as you know.
    The Chairman. I understand.
    Mr. Bonnie. In parallel with what the TAC recommended in 
their final report.
    The level of the inventory that, I think, you're talking 
about is unnecessary for us to arrive at a decision on the plan 
amendment. What we need is--
    The Chairman. Who has decided that that is unnecessary to 
do a comprehensive inventory to arrive at a decision at the 
plan level on this amendment?
    Mr. Bonnie. So the inventory that we're carrying out now 
will give us information that will allow us to do stand level 
projects and other things. I think we have the information we 
need right now to do a broad plan level amendment.
    The Chairman. So--
    Mr. Bonnie. What the inventory is helpful in doing is allow 
us to plan sales.
    The Chairman. The inventory has been recognized as 
necessary to provide for that level of certainty for the plan. 
Forest Service recognizes it. The TAC recognizes it. To suggest 
that we know enough now that we can just move forward with the 
plan that requires a complete transition in just 16 years 
belies the concern from everyone saying we need to understand 
where we are in the growth stage, in terms of the availability 
for harvest. We recognize that an inventory in the Tongass is 
tough because the Tongass is a tough area, but in order to have 
a plan that is based in reality, everyone recognizes we need to 
understand what we are dealing with with the trees here--where 
they are located, the volume available and the quality.
    Are you going against the TAC recommendation then?
    Mr. Bonnie. No, we're, I think, we're in line with the TAC 
recommendation. They asked us. They were very concerned about 
implementation. They asked us to move forward with the 
inventory we're doing now. As you know, we're doing it in 
partnership with the state. And so, I think we're very much in 
keeping with what the TAC has asked.
    The Chairman. But what you are suggesting to me here, in 
your words, is the requirement to inventory, and I will use 
your statement here, ``All 462,000 acres of young growth sites 
on the Tongass before issuing a record of decision will cause 
an unnecessary delay would be contrary to the recommendations 
of the Tongass Advisory Committee.''
    I will just take you back to the statement from the TAC 
itself on January 21 that says the number one priority 
investment is a forest inventory because modeling is not good 
enough for a clear picture of when young growth will come 
online during the next 15-year period.
    Know that the reason that we have included this requirement 
within this draft legislation is to follow out the intent of 
the TAC as well as what Forest Service has been saying all 
throughout this discussion, that we need to understand what we 
have in terms of available young growth so that we can make 
sure to use the Secretary's words, that we preserve a viable 
timber industry that provides jobs and opportunities for the 
residents of Southeast.
    I am going to turn to Senator Cantwell now.
    Senator Cantwell. Thank you, Under Secretary Bonnie, and 
thank you for your testimony this morning.
    I wanted to go over this issue of fuel reduction, because 
it is so important to so many of us. This issue about fuel 
reduction by limiting NEPA considerations is one thing that, 
kind of, hits at me. I know your testimony for the 
Administration also talked about that, and I hoped you could 
elaborate on that point.
    Mr. Bonnie. So I think what we said all along is that we, 
with a comprehensive fix, are happy to look at provisions to 
look at forest management on the national forests. Those 
provisions need to have strong, environmental safeguards, they 
need to be based on collaboratively designed projects and we 
think that those two things can be really important in allowing 
us to move forward with those types of tools. And so, any 
provisions that we look at, I think those are going to be 
important.
    We recognize the need to get more work done. And critical 
to that is thinking about larger landscapes, as you talked 
about, but also working in collaboration so that we can reduce 
litigation risk and so that we can move forward with these 
projects more quickly.
    Senator Cantwell. That language would be problematic if it 
stayed in the draft? NEPA?
    Mr. Bonnie. So I think what we would suggest, if you're 
talking about the action/no action section, I think what we 
would suggest is making sure it's got strong, environmental 
safeguards. It needs to be discretionary, not mandatory. I 
think the language right now is mandatory and I think that's 
problematic. And we'd suggest, maybe, adding a third 
alternative as well.
    Senator Cantwell. Okay.
    Then on the Pine Pilot, in general, what are your thoughts 
on it as a fuel reduction tool?
    Mr. Bonnie. So, I think you were thinking exactly right 
about thinking about large landscapes and thinking about how we 
get fire back into these ecosystems. And so I think that's 
important. I think the title collaboration is important. I 
think environmental safeguards are important. I've told your 
staff that I think we're anxious to work with you all on it. 
There's some provisions I think we have questions about and 
concerns about but are willing to work through that.
    Senator Cantwell. Okay.
    Mr. Rice, on reducing risks by doing some fuel reduction, 
what are your thoughts about the Pine Pilot?
    Mr. Rice. Thank you for the question, Senator.
    I think for many of the projects, specifically the Pine 
Pilot that you're referring to, the Department, in many 
instances, will defer to USDA to address many of these issues 
as it is focused on Forest Service lands.
    But the overriding themes, as you've pointed out in several 
cases so far, of ensuring environmental safeguards, strong 
environmental safeguards are in place and further developing 
landscape resilience is important.
    Senator Cantwell. Well, there is no secret here. I have 
discussed this issue with various people. This is about whether 
we all can get comfortable with the response to what is 
happening. Can we all agree?
    I am hearing from scientists in my state, at the University 
of Washington and others, who are saying these pine forests are 
going to burn down. I would prefer to keep them, but if they 
are going to burn down, guess what? I don't get to keep them.
    I can get them managed. I can get the fuel reduced. I can 
put the products from these treatments in Cross-Laminated 
Timber (CLT). I can make sure that the mills stay open by 
giving them long-term contracts so that they can continue to 
process the products from these treatments.
    To me that is a win/win/win situation because if I don't 
get to keep the pine forests because they are going to burn 
down, I would rather have some of it reduced and save the 
Federal Government dollars, secure our communities and actually 
be proud of the management of our forests and the use of our 
timber products for CLT.
    I guess it is really a question of whether both your 
agencies agree with these assessments that have been presented 
here today about the forests and temperature increases. Is this 
the hazard that we are facing? Do either of you have a comment 
about that?
    Mr. Bonnie. There's no question we've got to get more 
restoration done. Many of our forests look differently than 
they did 100 years ago because we've taken fire out. That, 
combined with climate change, as you spoke about, is changing 
the nature of the fires we've seen now. They're making them 
more destructive and larger and restoration is a key to reduce 
the severity of those fires.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Daines?
    Senator Daines. Thank you, Chair Murkowski and Ranking 
Member Cantwell.
    I gratefully put forward this draft. This is tireless work, 
and I like the bipartisan spirit that made this possible.
    Secretary Bonnie, it is good to see you again.
    I must say I am particularly dismayed and outraged this 
morning. We had breaking news coming out of Montana that hit 
us. The Twittersphere lit up as just yesterday Weyerhaeuser 
announced it is closing two mills in Columbia Falls, Montana 
this summer.
    One hundred Montanans are going to lose their jobs. These 
are good paying jobs on top of another 100 job cuts that were 
previously announced.
    The company said they have been running below capacity 
because of an ongoing shortage of logs in the region. I want to 
put to rest this nonsense I hear from folks who are opposed to 
forest management saying the reason the mills are closing in 
Montana is because of lack of demand. That is absolutely false. 
The issue is lack of logs. And by the way, it is not lack of 
available timber.
    Some of our mills today in Montana are getting logs over 
500 miles away. We go to other states to get logs. We go to 
another country. We go to Canada to get logs.
    It is ridiculous. It has got to end. This body needs to act 
to help save, right now, our forests through healthy, more 
forest management practices and these jobs.
    I want to draw your attention to the Flathead National 
Forest which surrounds much of Columbia Falls. The map behind 
me, the section in orange are the acres suitable for timber 
harvest in the forest.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    In fact, if you look at where the red circle is, that is 
where the Weyerhaeuser operation is at.
    We just put this map together, literally, last night when 
we got news. Nobody saw this coming. We knew that our timber 
industry has been very clear, that they cannot get logs. Now we 
just saw 100 Montanans lose their jobs as the results of this.
    But if you look at that map, there are about 700,000 acres 
of suitable timber for harvest there we could get to in 
national forest. That is the colors on that chart. That is all 
within 100 miles of that Weyerhaeuser operation.
    Despite the hard work of the Flatheads Forest Service 
workers, the volumes off this harvest coming off this forest, 
the nearby national forest, is not anywhere where it can and 
should be.
    The latest mill closings are deeply unfortunate. They are 
also not surprising. Over the past generation, since I was a 
kid growing up in Montana, we have lost two-thirds of our 
mills. We had over 30 when I was a kid. We are down to ten.
    Here is one more to put on the list. We have lost 40 
percent of our wood products workforce, 4,000 jobs. The irony 
is that we are told with this job loss we go into other 
committee hearings telling the importance to keep PILT and SRS 
going forward here so our counties that are surrounded by 
federal lands, who have lost their natural resource base, no 
longer have a tax base to fund their schools and their teachers 
and their infrastructure. And we have these dying communities.
    In fact, a family up in Eureka, which is Lincoln County 
just nearby where this plant closing occurred, a couple years 
ago was having dinner and they said basically we describe 
Northwest Montana as poverty with a view. That is what is going 
on.
    So we have previously discussed the impacts of litigation 
in Montana, and we have had hearing after hearing after hearing 
as we talk about getting to one of the core challenges if we 
are going to fix this problem and move forward toward 
responsible timber harvest, we need to have some reforms in 
litigation.
    There are currently, listen to this, there are currently 21 
projects under litigation. Thirteen of these were developed 
using collaborative processes, and recent objections filed by 
these fringe environmental extremist groups do not represent 
the 80 to 90 percent of most Montanans. They are stopping these 
projects, and they are signaling there is going to be more 
litigation that lies ahead.
    So my question with that as a background. As the Committee 
continues to work on this draft, I am convinced we can find 
common ground on meaningful litigation reforms such as 
expanding HFRA's balance of harms protections and closing 
loopholes that fringe groups have exploited in the courtroom as 
we have seen in the Cottonwood vs. Forest Service case. For 
instance, strengthening the objections process and establishing 
a pilot arbitration authority.
    Can I get your commitment to work with us, to work with me 
and other members of this Committee, toward finding consensus 
on such solutions that can be incorporated into this emerging 
legislation?
    Mr. Bonnie. So, we're happy to work with you on forest 
management reforms. My concern about litigation is whether or 
not we can maintain a middle so that we can move something 
forward.
    Senator Daines. Do you believe that litigation is a--
    Mr. Bonnie. Litigation is a challenge and it's a big 
challenge in your part of the world. There's no question.
    Senator Daines. So can I get your commitment to work with 
us to find some common ground?
    Mr. Bonnie. We'll continue to work with you and I'll just 
say understand--
    Senator Daines. But that is not a yes. Can I get a yes that 
you will work with us on--
    Mr. Bonnie. Absolutely, we'll work with you.
    Senator Daines. Thank you. I appreciate that because we are 
to the point now, I mean, this is something when your phones 
are ringing and you are seeing 100 Montana families losing jobs 
because of lack of logs when you are surrounded by timber. 
Something has got to change here.
    Alright, thank you.
    The Chairman. Thank you, Senator Daines.
    Senator Heinrich.
    Senator Heinrich. First I want to thank the Chair and the 
Ranking Member for their work on this issue. This issue of how 
we fund our forests and our management of our forests is 
critical to communities across the West. It is absolutely 
critical in many communities in New Mexico.
    As we speak right now, the Doghead Fire continues to burn 
in the East Mountains, not far from my home in Albuquerque 
actually. Last week we lost 24 homes and 21 other structures 
when that fire raced out of the mountains and into a 
subdivision. It is only thanks, really, to luck and favorable 
winds and the very hard work of our firefighters on the ground 
that the structure losses numbered in the dozens and not in the 
hundreds and that we had zero loss of life. Thank goodness.
    This fire actually overlaps with a collaborative forest 
project which includes partners like the Nature Conservancy, 
the Pueblo of Isleta, the Chilili land grant. Even though the 
NEPA process review on this project was completed back in 2012, 
the Forest Service did not have the funds to pay to do the 
actual work in the forest. It took two more years for the 
project partners to come up with the funds to start the work 
and still only 7,000 of 12,000 acres in the project were 
treated before the fire was ignited. So it is hard not to think 
about how things might have been different if this entire area 
had been successfully treated and restored before the fire 
broke out last week.
    I know we all wish the Forest Service could approve 
projects faster, more efficiently. But the fact is that project 
approval is only the first hurdle in getting work done to make 
our forests healthier. Without a robust and stable budget, all 
the process streamlining in the world doesn't get trees cut.
    I look forward to hearing from our witnesses today and to 
hearing what they have to say about the issues, but we cannot 
wait any longer to get large-scale forest health projects 
implemented in New Mexico, and for that matter, across the 
West.
    Under Secretary Bonnie, I want to ask you a question. The 
fire program at the Forest Service is consuming a larger 
percentage of the overall forest budget every year. Last year, 
for the first time, the Forest Service spent more than half its 
budget on fire activities. In 2025 the fire program is expected 
to consume two-thirds of the budget. Obviously this cuts out 
money. It crowds out money for non-fire related programs, 
recreational programs, personal firewood use permits (which are 
so important in New Mexico), road and trail maintenance, forest 
restoration and watershed health.
    I want to ask you, does this draft that we are discussing 
today do anything to address the growth over time in that 10-
year average?
    Mr. Bonnie. No, it doesn't. It just addresses the first 
problem I talked about in my testimony, fire borrowing.
    Senator Heinrich. So if we fix the fire borrowing but do 
not fix the growth in the 10-year average and do not take into 
account the continued changes we are seeing in climate, what 
does that mean for the non-fire programs at the Forest Service 
over time?
    Mr. Bonnie. So, I think, as you point out, the biggest 
impediment right now to the Forest Service getting more work 
done, more restoration work, is a lack of capacity. Thirty-nine 
percent fewer employees across the agency in the non-fire side 
versus the fire side of the organization, and it's affecting 
everything, again, as you point out.
    To your specific point on restoration, if we want to get 
more work done, we have to solve this problem.
    Senator Heinrich. We have got to figure this out because we 
have projects all over in forests across New Mexico where the 
community has come to a generalized consensus about what needs 
to be done. The relationships with the Forest Service are 
positive. People generally agree on what we need to be done and 
oftentimes much of the planning has been done. But we can't get 
the needed funding because we are spending it all on 
firefighting. We have got to find a way to move that back over 
time.
    Before my time expires I want to ask you a little bit about 
the Ponderosa Pine/Mixed-Conifer Pilot Project. The draft 
project describes eligible projects as hazardous fuel reduction 
projects. Under the current draft would that include prescribed 
fire as well as mechanical thinning or do we need to clarify 
that? Because obviously the idea is the first wave you go in 
and thin mechanically and that has a certain cost to it and 
then the second wave, hopefully, you maintain that by restoring 
fire into a fire-based system at a much lower cost to the 
taxpayer.
    Mr. Bonnie. We would read that it does include that but 
clarification, I think, would be welcome.
    Senator Heinrich. Great.
    It looks like my time has expired, Madam Chair.
    The Chairman. Thank you, Senator Heinrich.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair. Let me 
commend you and the bipartisan leadership for all the effort 
that went into the draft. This is not an easy lift, and I very 
much appreciate--
    The Chairman. You know that.
    Senator Wyden. I do indeed.
    Madam Chair and colleagues, ending the plague of fire 
borrowing is now the longest running battle since the Trojan 
War and it is time to bring this to an end.
    Madam Chair, I note this is a little unorthodox, but I want 
to give a little history on this on behalf of Senator Crapo and 
I. As you know, the two of us have worked together on this and 
with you, our proposal to end fire borrowing now has the 
support of 258 organizations and given the history on this, I 
especially appreciate your desire to get this done before the 
next fire season.
    In terms of advancing that effort, I would just like to put 
into the record that we have had 11 of us a year ago saying we 
were going to get it done and to your credit, you have picked 
up on that proposition and that now is clearly the time to get 
this done.
    Now I want to make sure we are clear on the major issue--
the mix of ending fire borrowing and improving forest 
management. The Chair and I have talked about this often 
because I have been supportive of management efforts as has 
Senator Crapo. The concern is that if you take on too many 
difficult management issues you will not end fire borrowing, 
and that has been the history.
    It seems to me the Chair and the Ranking Member on our side 
are saying here is where we would like to begin the discussion. 
We just want to make sure we end up getting something done. We 
want to get something done.
    As the Chair and I have talked about, getting something 
done is also a bicameral effort because I thought we were 
pretty close last year to finally getting it done, and it broke 
down in discussions between the Senate and the House.
    So on the fire borrowing issue I just want to make sure we 
are clear on the Administration's position. I believe the 
Administration believes that to deal with fire borrowing you 
have to freeze, and I use that word specifically, you have to 
freeze the amount of money that is spent on fighting fire at a 
fixed number, like the current 10-year average. If you don't 
have a freeze or something that resembles a freeze, we are not 
going to get this done. Do you all support the concept of a 
freeze?
    Mr. Bonnie. Yes.
    We've talked about both a freeze and the 70 percent in your 
legislation as ways to do exactly what you're talking about.
    Senator Wyden. How about your colleague? What is his view 
with respect to this?
    Mr. Rice. Thank you, Senator.
    I'm in the same place. I think the Administration's 
proposal of 70 percent as well as looking at the 1 percent of 
fires and categorizing them as catastrophic wildfire and 
focusing on that element that will give us the flexibility to 
focus on landscape restoration. Thanks.
    Senator Wyden. So, that is your take on what we need to do 
to fix fire borrowing.
    Now as I have indicated, I support management as well. I 
mean, clearly management is a central part of this, and it is 
certainly going to be a central part of getting any kind of 
agreement with the other body.
    Mr. Bonnie, what are the bipartisan opportunities for 
management reforms in your view? In other words, the Chair and 
the Ranking Member represent all of us in these discussions 
with the House. We are going to be working with you on this 
because we want to get it done this time. We are going to make 
it happen before the serious fire season. The other part of the 
Congress is going to insist on some management reforms. What 
are the kind of management reforms you could support in those 
discussions?
    Mr. Bonnie. So I think you and many others here worked on 
the 2014 Farm bill and some of the provisions in there. They 
require collaboration. They require environmental safeguards.
    And I think using that as a basis and looking for things 
that, to use your language, something that Congress and the 
Administration can get done. That, and I think there is common 
ground that we can find across the conservation community, 
industry and elsewhere.
    Senator Wyden. My time is up.
    Could you get to the Chair and the Ranking Member and the 
rest of us on this Committee, the specifics of what management 
reforms the Administration would support in addition to the 
effort to end, finally, once and for all, the fire borrowing 
because that is going to have to be part of actually getting 
this done?
    Mr. Bonnie. Yes.
    Senator Wyden. And can we have that within two weeks?
    Mr. Bonnie. We'll try.
    Senator Wyden. Well we better have it within two weeks 
because the fire season is on us, and there are not many days 
left in the Congress. Two weeks?
    Mr. Bonnie. I'm on it.
    Senator Wyden. Alright.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden. I appreciate you 
pushing for the specifics.
    As I mentioned in my opening statement, it is my intention 
to be moving this proposal in a relatively direct manner. We 
don't have a lot of legislative days remaining before we 
conclude for mid-July recess, so I would reiterate the request 
from Senator Wyden and ask that you be most expeditious within 
these next two weeks with specifics.
    Let's turn to Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thanks for 
holding this hearing on the Wildfire Budgeting and Forest 
Management Act.
    Welcome to the Committee, thank you very much for being 
here.
    Thank you to Chairman Murkowski, Ranking Member Cantwell, 
Senators Wyden, Risch and Crapo for the work on this 
discussion, is it a draft, and to reaffirm my commitment to all 
of us and the U.S. Forest Service to address this very critical 
issue. It is something I hear about from county commissioners, 
legislators, every time I go back to Colorado, the importance 
of addressing this issue.
    Colorado, as well as many Western states, who have mostly 
on this Committee have talked about today, I am sure, the 
impacts, significant loss, that can occur from a forest fire, 
issues of funding and staff to manage the forests, the big 
issue and of course, with over 14 million acres of national 
forests and grasslands. Whether it is grazing, timber or 
recreation, it is all affected by drastic impacts we have had 
from budget reductions and other things on how we currently 
fund wildfire suppression.
    I want to turn to you, Mr. Bonnie. Thank you for being 
here, and thanks for your commitment to working with my office 
on these issues. We have got to find an end to this fire 
borrowing practice.
    Just this past week we have seen a wildfire balloon in 
Northwestern Colorado. It is the Beaver Creek fire. It is not 
what many people think when they hear Beaver Creek. It is a 
different area than Beaver Creek, Colorado, but it is up on the 
Wyoming/Colorado border area. Our office has been in touch with 
the Forest Service officials and local offices, and I am very 
thankful for the work the firefighters on the scene are doing 
at this time.
    I know a couple, at least two, of other fires are also 
burning in Colorado as we speak, so this is an important issue 
in real time.
    In the context of wildfire borrowing and fire suppression, 
I am acutely concerned that the recreation program in the 
country's most heavily visited national forest, the White River 
National Forest. Reports have shown that this forest has lost 
over 40 percent of budget and staff in the last five years 
while the recreation use has continued to increase. Again, it 
is the most heavily visited national forest.
    One of the most negative effects of this trend is that the 
agency is unable to be a responsible partner to deliver 
recreation to millions of visitors. The White River is home to 
several world class ski resorts. The industry generates 
tremendous economic benefits to the Treasury, the states and 
local communities.
    During the Forest Service budget hearing for the FY 2017 
budget request I asked Chief Tidwell how the agency planned to 
address this issue in the White River National Forest. Since 
then he has agreed to meet with me and ski resorts in early 
July to further address this question. I very much appreciate 
that commitment.
    I would ask you if you were aware of any plans to address 
the immediate issues with the White River National Forest?
    Mr. Bonnie. Yes, I think as you know, I think we used to 
have eight full time staff members that worked directly with 
the ski industry there, and I think we're around two now. And 
you're absolutely right. We're not providing the level of 
service we need to be, and it's the same capacity problem.
    So I've been in touch. Folks from the ski industry have 
talked to me. Absolutely willing to engage and be creative 
about how we can solve this problem.
    Senator Gardner. Very good, I appreciate that.
    Turning now to another area of Colorado, the Durango and 
Silverton Narrow Gauge Railroad in Southwestern Colorado. It is 
an incredible railroad, a great part of our history, a crown 
jewel in Colorado and really, the West. But because it is a 
coal-fired old railroad they are required to have firefighting 
capabilities in place to address any spot fires that might come 
up, and these firefighting capabilities that they possess 
include water tanks and pumps following the train, men trying 
to combat fires and a helicopter that is on standby to make 
water drops.
    While the railroad is rightfully responsible for addressing 
fires that come up along the railroad right-of-way, it is my 
understanding that they are prohibited from fighting fires 
which come up beyond their rights-of-way in the forest service 
land and must, instead, just report it instead of actually 
using their resources to help fight it.
    On November 17, 2015 I asked questions at this Committee 
during a hearing on wildfires. We talked about certification 
issues, trained wildland fire entities and how they could be 
empowered to fight fires before they get out of control when 
they are spotted.
    Section 201 of the discussion draft would require a single 
system for credentialing both federal and state certified 
wildfire aircraft and provide interim acceptance of both 
standards. It is my hope that Section 201 will assist in 
addressing the Narrow Gauge Railroad situation, at least in 
Colorado.
    Could you talk a little bit more about the Forest Service's 
policies toward partnership with private entities like the 
Durango and Silverton Narrow Gauge Railroad in combating 
wildfires?
    Mr. Bonnie. So we do a lot of work with contractors, 
obviously, to provide helicopters. The vast majority are 
through contractors.
    The caution I will raise on the certification issue has to 
do with air safety. We have, we've had a number of accidents, 
and so the standards we set are very important to the Forest 
Service. Safety comes first. So happy to work with your office 
on the issue. I think the flag I would raise is we just want to 
make sure whatever we do, we're being as safe as we can.
    Senator Gardner. Thank you, I look forward to ongoing 
conversations. Again, thanks for the work that you are doing in 
Colorado as we speak.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Gardner.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair, and thank you for 
the work that you and Senator Cantwell have done.
    Last year Chief Tidwell testified to this Committee on the 
interaction of wildfire and climate change. As the Chief 
shared, science has shown that climate change is one of the 
major factors leading to the recent trends of longer fire 
seasons with wildfires and wildfires that are larger and more 
intense. In fact, fire seasons are now, on average, nearly 80 
days longer than they were in 1970, and wildfires burn twice as 
many acres today as they did 30 years ago.
    Our climate is warming and we are experiencing unfamiliar 
and unprecedented conditions. Drought may be the new normal. 
Invasive species and insect outbreaks may be the new normal. 
Larger than average fire seasons may be the new normal.
    Under Secretary Bonnie, in your opinion, to what extent has 
climate change driven the increases in fire suppression costs 
that we have been seeing?
    Mr. Bonnie. There's no question it's had a significant 
impact. We're seeing larger, more catastrophic fires. It's not 
the only thing. Also, because we've taken more natural fires 
out of these ecosystems, we've built fuel loads up. Because we 
have more development in the Wildland-Urban Interface, costs 
have been driven up. But you throw climate in the mix and the 
trends are not good.
    Senator Franken. So clearly, climate change has a cost, and 
this cost is having a serious impact.
    Mr. Bonnie. Yes.
    Senator Franken. On your agency.
    Unfortunately, my colleagues across the aisle seem to be in 
denial about the real cost of climate change and for some of 
them whether climate change even exists.
    Do you expect the costs to rise as climate change continues 
to get worse?
    Mr. Bonnie. Yes, and Forest Service scientists believe 
we'll double the acreage that we're burning annually by mid-
century, more than double, actually.
    Senator Franken. In Minnesota non-native invasive species 
threaten the health of our forests. Minnesota has about one 
billion ash trees and is home to the largest concentration of 
ash in the country. Unfortunately, the invasive emerald ash 
borer has already destroyed tens of millions of ash trees 
throughout the U.S. since it was first detected in 2002. Under 
Secretary Bonnie, I want to thank your agency for the work that 
you are doing at the Forest Service's Northern Research Station 
to combat emerald ash borer in my state and throughout the 
country.
    But I am concerned that the growing cost of wildfire 
suppression is draining your budget and hindering some of this 
and other great work that the Forest Service is doing outside 
of fighting wildfires. In fact, the Forest Service has, as I 
think has been mentioned in this hearing, 39 percent fewer 
staff in non-fire positions today than it did less than 20 
years ago.
    Mr. Under Secretary, as you know, it is not uncommon for 
funds or even staff to get transferred mid-season to fight 
wildfires. The bill we are discussing today addresses the fire 
borrowing issue but it does not fix the fact that wildfire 
suppression costs continue to grow and erode the overall forest 
budget. Isn't that right?
    Mr. Bonnie. That's right.
    Senator Franken. Okay.
    Thankfully Minnesota typically does not experience the 
catastrophic fires we see out West, but the ever expanding 
costs of wildfire suppression still significantly impacts my 
state. I want to make sure that any wildfire legislation 
addresses the needs of Minnesota so that we, too, can tackle 
our most threatening issues like the emerald ash borer and 
protect our cherished resources.
    One thing I would like to see in any comprehensive wildfire 
legislation is finding a market for hazardous fuel and forest 
waste. Communities are increasingly built in the Wildland-Urban 
Interface in heavily wooded areas where they are at risk from 
economic damage from forest fires. We know that. We are 
removing hazardous fuel like underbrush and immature trees. It 
can help reduce the severity of wildfires and mitigate economic 
damages, especially when this is done right, around communities 
near or within our forests.
    I see an opportunity to help pay for the removal of 
hazardous fuels by using this waste as a source of electricity 
for nearby communities. This could simultaneously reduce fire 
risk and bring economic benefit. Combined heat and power and 
other facilities that use woody biomass are ideal options.
    As my time runs out, Under Secretary Bonnie, once it is 
cut, what is done with hazardous fuel today?
    Mr. Bonnie. Well, in so many places we're paying people to 
remove them. To your point, if we had greater markets for 
hazardous fuels, we'd actually be able to get more work done. 
The Forest Service is making investments here, but there's more 
to do and the budget constraints we're operating under makes it 
more difficult.
    Senator Franken. I know I am over, but can I ask this one 
last half a question?
    The Chairman. Wrap it up very quickly.
    Senator Franken. Okay.
    In your experience what are the major road blocks to using 
hazardous fuel for biomass power which, as we are saying, could 
help both mitigate fire risk and play a role in clean energy 
generation?
    Mr. Bonnie. Well, one of the challenges is just the lack of 
markets and cheap natural gas and other things. So, it's going 
to require investment.
    Senator Franken. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Senator King.
    Senator King. Thank you, Madam Chair.
    I am trying to figure out relationships here between fires, 
climate change and management of the forests. My impression is, 
and I think your chart indicates this but I may be wrong, that 
part of preventing fires is more intensive management of the 
forests. Is that correct?
    Mr. Bonnie. Yes.
    Senator King. Yet the increase in fires is, kind of, a 
vicious circle. The increase in fires is sopping up so much of 
your budget you do not have the money left to do the management 
which then makes fires more likely, which then takes more of 
the budget. Is that the dynamic that is in play here?
    Mr. Bonnie. We can't do the management at the scale we need 
in order to confront the problem. That's right.
    Senator King. So we really need to be talking about 
different ways of funding the fire danger that does not eat up 
the rest of your budget.
    I met with Secretary Vilsack this week and I cannot 
remember the exact figures but, as I recall, the fire budget is 
basically eating up everything else.
    Mr. Bonnie. Yes, we'll typically spend more than half of 
our budget every year now just on firefighting. If you add in 
other fire costs it can go north of that.
    Senator King. I think he said that 15 or 20 years ago it 
was like 15 percent of the budget.
    Mr. Bonnie. About a sixth of the budget in 1995, one-sixth.
    Senator King. And now it is over half.
    Mr. Bonnie. Yes.
    Senator King. The point I am getting at and I think you 
confirmed is that to the extent that that happens, it crowds 
out spending on other forest management, for example, clearing 
the undergrowth, selective thinning and that kind of thing. 
That, in turn, makes more fires, and fires more likely.
    Mr. Bonnie. That's exactly right. And in states like Maine 
where you don't have as much federal land, we're working with 
your state foresters to provide help to them so they can work 
with private landowners and those budget funds are less as 
well.
    Senator King. Madam Chair, that is all I have.
    But I think this is a very important issue, and I know you 
recognize we are inadvertently making the problem worse by not 
providing sufficient funds for the management of these lands.
    Thank you.
    The Chairman. Thank you, Senator King.
    I think the discussion was/is important, recognizing that 
when you borrow from other accounts to pay for suppression that 
does not work. It is not sustainable, so making sure that we 
get the fix right, I think, is very important.
    Mr. Bonnie, I have multiple questions that I would like you 
to answer for the record including one that is specific to the 
issue of an updated projection for total suppression resources 
needed based on that 10-year average. So you will see that.
    Again, if you can provide responses as quickly as possible 
to the Committee, that will be greatly appreciated.
    I would like to do another round, but we have six witnesses 
on the second panel that we want to make sure that we get to 
before the noon hour, so we will excuse both of you and thank 
you for appearing before the Committee this morning.
    Mr. Bonnie. Thank you.
    The Chairman. As the next panel is finding their seats, I 
will introduce each of you to the Committee and I will offer 
apologies on behalf of other colleagues on the Committee this 
morning. As Senator Risch, who was here just a few moments ago, 
whispered into my ear, I have three different committees that 
are meeting at the same time here this morning. Please do not 
take this as an indication of lack of interest, but you can 
only be at one place at a time or at least that is what we 
believe.
    I would like to welcome the second panel before the 
Committee. We will lead off this morning with Dr. Peter 
Goldmark, who is the Commissioner of Public Lands at the 
Washington State Department of Natural Resources. It is nice to 
have you here. He will be followed by Ms. Julia Altemus, who is 
the Executive Director of the Montana Wood Products 
Association. She will be followed by Rebecca Humphries. Ms. 
Humphries is the Chief Conservation Officer at the National 
Wildlife Turkey Federation. We appreciate you being here this 
morning. Mr. Peter Nelson is with us. He is a Senior Policy 
Advisor for Federal Lands for the Defenders of Wildlife. 
Welcome. Mr. Eric Nichols is a constituent from the State of 
Alaska. He is a partner at Alcan Forest Products. Rounding out 
our panel is Mr. Ken Pimlott, who is the Director for CAL Fire. 
Again, welcome to each of you.
    I would ask that you keep your comments to less than five 
minutes. Your full statement will be included as part of the 
record, but again we want to be able to get through everyone's 
testimony and have an opportunity for a few questions before we 
have to conclude just around noon.
    Dr. Goldmark, if you would like to lead us off?
    Thank you all.

STATEMENT OF DR. PETER GOLDMARK, COMMISSIONER OF PUBLIC LANDS, 
        WASHINGTON STATE DEPARTMENT OF NATURAL RESOURCES

    Dr. Goldmark. Good morning, Chairman Murkowski, Senator 
Cantwell, members of the Committee.
    To begin with I'd like to thank Senators Cantwell, 
Murkowski, Wyden and Crapo for their leadership and dedication 
to improving response and resources for wildfires. I appreciate 
the invitation to appear before you today.
    My name is Peter Goldmark, and I am the Commissioner of 
Public Lands for the State of Washington. Elected directly by 
the people of my state, I am charged with managing and 
protecting Washington's natural resources.
    For over 150 years, citizens of our state have looked 
eastward for help and partnership from Congress on critical 
issues. Today, one of those critical issues is wildfire, and I 
appreciate this opportunity.
    That responsibility that I bear includes leading our 
state's firefight against wildfire and overseeing forest health 
across all jurisdictions and all ownerships. Recently it has 
been a heavy responsibility to bear. We have lost about 3.5 
percent of Washington State to wildfire over the past two 
catastrophic years, and most terrible of all was the death of 
three young firefighters who died protecting homes during the 
Twisp River fire last August. The impact on our people and the 
landscape has been horrific to witness and difficult to bring 
to the halls of Olympia or the halls of Washington, DC, in the 
damage and danger and trauma to our people.
    In Washington our extreme climatic conditions have created 
a hotter, drier landscape. Our forests are sick and ripe for 
wildfire. For too many years investments in forest health, 
thinning and fuel reduction have not kept pace with the amount 
of risk on the landscape. We know what we need to do to allow 
Washington to remain the Evergreen State. We must aggressively 
treat and manage our forests using fuel reduction treatments 
and prescribed fire when appropriate.
    There is broad community and scientific support for 
accelerated forest restoration. I encourage you to develop the 
Pine Pilot concept discussed in Title III, Subtitle D, to 
achieve the needed faster pace of restoration. We depend on our 
forests for clean water, wildlife habitat, jobs and carbon 
storage. They are a resource to conserve and protect, not to 
squander.
    Since I took office in 2009 I've secured almost $25 million 
in state investment to build resilient forests. Sadly, federal 
investment has not kept up. This legislation under 
consideration would end the practice of fire borrowing that 
robs from prevention and fuel treatment programs; however, it 
does not address the continued structural erosion of the Forest 
Service land management budget by rising fire costs.
    A different budget formulation that eliminates use of the 
10-year average of suppression costs or at least freezes it in 
time, is crucial to a realistic federal wildfire budget policy. 
Failure to fix this problem will trap us in a cycle of more 
costly fires. Others before me have acknowledged this. You, 
Senator Murkowski, you, Senator Cantwell, know full well this 
problem.
    I'm speaking, of course, in support of this draft proposal 
including a particular concern to me is that credentials for 
firefighters and aircraft must be standardized to ensure safe 
and rapid response when wildfire threatens. We must expand the 
use of drones and particularly, retardant aircraft, to keep 
fires small. A location tracking system will help keep fire 
crews safe. Expanded use of Firewise programs and fire-risk 
maps will give communities the knowledge and tools to prepare 
for wildfire, and improved telecommunications infrastructure 
will help people who live in fire-prone areas keep track of 
evacuations and road closures if wildfire threatens.
    I believe we are at a critical moment. These last two 
wildfire seasons are a brutal warning. We must now do the vital 
work, as described in this discussion draft, to prepare for and 
respond to wildfire.
    Thank you.
    [The prepared statement of Dr. Goldmark follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    The Chairman. Thank you, Dr. Goldmark, we appreciate your 
considered remarks.
    Ms. Altemus, I hope I am pronouncing that right.

 STATEMENT OF JULIA ALTEMUS, EXECUTIVE DIRECTOR, MONTANA WOOD 
                      PRODUCTS ASSOCIATION

    Ms. Altemus. That is correct. Thank you.
    The Chairman. Very good, thank you.
    Ms. Altemus. Good morning. My name is Julia Altemus. I'm 
the Executive Director of the Montana Wood Products Association 
and a member of the Federal Forest Resource Coalition Policy 
Committee. I want to thank you for this opportunity to testify 
today.
    We appreciate the efforts of this Committee, including the 
Chairwoman, Ranking Member as well as Senators Wyden and Crapo 
to tackle the tough issues facing the Forest Service. We are 
committed to finding workable solutions to the problems of the 
federal forest management and fire borrowing and stand ready to 
work with the Committee.
    The Montana Wood Products Association represents the wood 
manufacturing industry in Montana. Our industry is the state's 
primary manufacturing sector with roughly 7,500 direct and 
indirect jobs, a payroll of $319 million and sales of $900 
million.
    Roughly two-thirds of Montana's timber base is managed by 
federal agencies. In the last quarter century, we have lost 30 
mills including the two yesterday and roughly 4,000 jobs as a 
direct result of litigation and declining federal timber sales. 
None of our remaining mills are run at full capacity and all 
depend on a sustainable supply of federal timber.
    According to forest inventory analysis data, Montana's 
federal forests grow 567 million cubic feet of wood fiber 
annually. Five hundred ten million cubic feet, or an 
astonishing 89.9 percent, suffers annual mortality as a direct 
result of insect and disease. We only harvest about 4.5 percent 
of the annual growth and 5 percent of the mortality each year 
leading to chronic buildup of fuels for future wildfires.
    Unfortunately, the Forest Service lacks authorities to plan 
and implement needed management projects in a timely fashion. 
Badly needed forest thinning, restoration and vegetative 
treatments can take years to get through NEPA only to meet 
opposition by fringe groups critical of timber harvest.
    The 2014 Farm bill provided some tools to address these 
issues and Region One is very creative in their approach and is 
moving as expeditiously as possible but to date only one 
project is pending a decision, four have completed NEPA, seven 
are under analysis and 19 are on deck.
    With 82 million acres identified by the Forest Service as 
high priority landscapes nationally, we fear that the new tools 
in the 2014 Farm bill are not enough to address the challenges 
we face.
    Therefore, we applaud the Committee's commitment to solving 
some of our toughest challenges, providing our federal partners 
with a suite of tools and opportunities to increase the pace 
and scale of resource management and restoration is one of our 
top priorities.
    Our written statement makes specific recommendations but we 
offer the following thoughts.
    Under Title I, we appreciate the budgetary relief provided 
by this Title but would urge you to consider freezing the 10-
year average at the 2015 levels and expand the use of wildfire 
risk reduction projects to lands in Fire Regime IV. This is 
particularly important for the work in the Northern Rockies as 
these landscapes traditionally lack age class diversity. 
There's 181,000 acres in this age class in Region One, 175 of 
those acres are in Montana alone.
    Under Title III, we are concerned about provisions limiting 
the use of streamlined NEPA in lands designated as critical 
habitat. Montana has roughly 3.6 million designated acres 
within the suitable base much of which is susceptible to 
catastrophic fire but it is important to add these lands to the 
mix.
    The need to treat fuels in dry and wet forest types is the 
same, communities surrounded by forest types that experience 
low frequency, high intensity wildfire are at the same for loss 
of life and property. Of the three things that drive wildfire, 
fuel, topography and weather, the only driver we can modify is 
fuel.
    The above-mentioned provisions address NEPA, timeliness and 
pace and scale. What it does not address is how to confront 
legal challenges affecting project implementation.
    Montana has suffered the effects of the timber wars for 
decades. In order to break the gridlock, local people 
representing diverse interests have gathered to find solutions 
to tough issues. Over the years roughly 30 collaboratives have 
formed. They're working together within a zone of agreement 
that includes restoring ecological function, offers economic 
stability and honors social values.
    Even so, fringe groups continue to challenge projects in 
court. Currently, there are 220 million board feet of timber in 
litigation, 45 million board feet in a notice of intent to sue 
and 202 million board feet over objection. This will impact 
51,000 acres. Projects under litigation alone affects 44,000 
truckloads of logs and thousands of jobs. Montana Wood Products 
Association suggests judicial reforms are needed.
    I'm about out of time so I will be happy--they're in our 
written statement. I'll be happy to offer that for further 
discussion.
    In closing, we do want to thank you for all your effort in 
bringing this draft discussion to us, and we know that the 
Forest Service is working hard to solve these problems, but 
they do need your help.
    Thank you.
    [The prepared statement of Ms. Altemus follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    The Chairman. Thank you, Ms. Altemus, we appreciate the 
specifics that you have offered the Committee.
    Ms. Humphries, welcome.

   STATEMENT OF BECKY HUMPHRIES, CHIEF CONSERVATION OFFICER, 
                NATIONAL WILD TURKEY FEDERATION

    Ms. Humphries. Thank you.
    Good morning, Chairwoman Murkowski. My name is Becky 
Humphries, and I am the Chief Conservation Officer for the 
National Wild Turkey Federation. In a prior life I was also the 
Agency Director in the State of Michigan that oversaw the 
management of a four-million-acre state forest system and the 
Wildlife Chief.
    The National Wild Turkey Federation is a nationwide, non-
profit but we do on-the-ground conservation work. We were 
originally formed to restore the wild turkey to its original 
habitat in this country, but we now have shifted into save the 
habitat, save the hunt, and through this initiative we are a 
large partner with the U.S. Forest Service.
    We have state chapters in every state of the nation, and we 
also have a team of biologists and foresters that work on the 
landscape. We had one of the first stewardship agreements. We 
have a formal partnership with the U.S. Forest Service that was 
signed in 1986 and continues today, and we've delivered 
thousands of projects across the United States.
    We're a leader in stewardship contracting and even though 
we don't have a mill and do anything with the wood products, 
but through stewardship contracting we're consistently listed 
as one of the top ten timber buyers in the country. And a few 
years ago we were number five.
    We strongly support the discussion draft we have before us 
today. We appreciate the Committee is considering both a fix to 
fire borrowing and active management of our forests, because we 
feel very strongly that they go hand in glove. We must fix both 
if we're going to be successful.
    We strongly applaud active management. Wildlife biologists 
across this country know that diversity is the key to really 
good wildlife habitat out there. Wildlife takes food, water, 
shelter and space in order to live and active management 
creates that diversity on that landscape.
    Lack of proper management has resulted in species declines 
and in the Eastern United States, 59 percent of the birds 
species depending on young forests have declined over the last 
two decades. We have species like the golden winged warbler 
that's now a candidate for the Endangered Species Act. Ruffed 
grouse, that used to be very, very prevalent, have disappeared 
in the Midwest and in the Eastern United States. And the wild 
turkey population is declining. The gopher tortoise which is a 
keystone species and is found in pine savannahs is really, 
represents 360 other wildlife species on the landscape that it 
is needed by that habitat.
    In the Western U.S. we see similar situations where we 
manage for old growth we may benefit only 14 species, but while 
there are over 70 species that are dependent on those young 
forest types and we need to do more for those species.
    The U.S. Forest Service allocates funding and guidance to 
provide such young habitat but fire borrowing, as we've heard 
today, and our broken management system preclude us getting 
that work done. The pace of creating young forests needs to 
greatly increase if we're going to be successful.
    We appreciate the proposed fire borrowing fix. We have, as 
we look at the fire system on budgets you've heard today, over 
50 percent of it is going into fire suppression efforts. There 
are real consequences to this.
    When we look at some of the fire systems over the fires 
activities that have occurred, we've seen over 60 percent on 
some of our fire areas that are most fire prone and those have 
severely hampered our efforts.
    The rolling 10-year average as outlined in the bill is an 
improvement for sure, but we really need to freeze it, as we've 
talked about, so that we don't continue to erode the money 
that's available to do active management. We request the 
Committee consider using as a benchmark, the 10-year, the last 
10-year average for that and freeze it at that amount. We 
acknowledge that that's the jurisdiction of the Budget 
Committee and we ask you to move forward and work with them on 
trying to find a resolution to that.
    We strongly support collaboratives and the provisions in 
those of action/no action. We really think that can affect 
state agency's management capabilities on wildlife. And the 
National Wild Turkey Federation partners with every state 
wildlife agency across the state and that state/federal 
cooperation is really, really important. We think it will 
enhance that.
    We support collaboratives that qualify for expedited NEPA 
review, restricting alternatives reduces the overhead and it 
helps break some of the gridlock and the paralysis that we see 
in our system.
    Management needs to be returned to the professionals.
    In moving forward on a couple items, we strongly support 
the ponderosa pine forest and the dry sites and what we can do 
to help move that forward. We think that's good.
    Also, Tongass National Forest, we think it's reasonable and 
prudent to do that inventory. We don't want to slow down that 
process but we do think that maintaining our markets and the 
local economies is very important.
    Overall, we strongly applaud your efforts to move this 
forward.
    Thank you.
    [The prepared statement of Ms. Humphries follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    The Chairman. Thank you, Ms. Humphries, we appreciate it.
    Mr. Nelson, welcome.

 STATEMENT OF PETER NELSON, SENIOR POLICY ADVISOR FOR FEDERAL 
                  LANDS, DEFENDERS OF WILDLIFE

    Mr. Nelson. Thank you. Thank you, Chair and Senator Daines.
    My name is Pete Nelson. I'm a Senior Policy Advisor at 
Defenders of Wildlife where I manage our National Forest Policy 
Program. Thank you for inviting my testimony today.
    I've been professionally involved in National Forest 
science, policy and management for nearly 20 years. I'm a 
member of the Federal Advisory Committee overseeing 
implementation of the Forest Service's 2012 Planning Rule, and 
I'm also a member of the
Beaverhead-Deerlodge Collaborative Working Group in Southwest 
Montana.
    We are in a new era of wildfire. A warming climate is 
drying out Western forests and leading to more and larger 
wildfires and a longer fire season. Just look at California and 
New Mexico today.
    However, existing policies and approaches are not adapted 
to this new reality. The wildfire budget is a prime example. 
The current budget structure is not capable of responding to 
today's wildfires and its costs spiral out of control. The 
wildfire budget consumes the very programs that are essential 
to sustaining communities and forests over the long-term. 
Without a comprehensive fix to that problem, anything else we 
try will be futile.
    We also need to make our forests more resilient to 
wildfire. A failure to do so risks losing all of the values 
they provide.
    And while we appreciate improved planning for at risk 
communities, wildfire risk mapping, prioritization within the 
Wildland Urban Interface, other management provisions in the 
discussion draft do not work and may, in fact, do more harm 
than good.
    You can't solve today's problems with yesterday's thinking. 
Proposals to bypass NEPA and undermine public and judicial 
review are outdated and ineffective. We need innovative 
approaches to forest restoration.
    Producing defensible restoration projects requires smarter, 
not less, analysis, and we simply can't legislate our way to 
good decisions.
    NEPA shortcuts aren't likely to yield better outcomes on 
the ground. For example, limiting analysis to action/no action 
alternatives may ignore better solutions while increasing the 
likelihood of making uninformed decisions. We can't afford 
taking that risk in places like community drinking watersheds 
for the sake of expediency.
    Meddling with NEPA is also divisive. A letter submitted to 
the Committee by dozens of conservation organizations, many of 
which are involved in collaborative restoration, highlights 
opposition to the discussion draft and specifically the 
controversial nature of some of the forest management and NEPA 
provisions. Such shortcuts can undermine ongoing collaborative 
restoration activities.
    I'm concerned that if we raise the level of controversy 
over forest restoration, we make the entire public lands 
management system more caustic, less resilient and diminish 
values for people, communities and forests.
    We need to build an approach to forest restoration that is 
adaptable to today's complex challenges. As someone who has 
been involved with forest collaboratives, I don't see a NEPA 
problem. I see a capacity and restoration planning problem. We 
need the resources and incentives to plan and implement forest 
restoration at a scale that can significantly improve 
conditions and achieve project level efficiencies. The success 
of the 4FRI project in Arizona demonstrates that large, 
landscape-level restoration programs can be accomplished under 
existing authorities. Other stand-out examples of this approach 
include the Blue Mountains Forest Resiliency Project in Oregon 
and the Blackfoot Swan Landscape Restoration Project in 
Montana's Southwest Crown.
    The proposed Ponderosa Pine Pilot Program reflects this new 
resiliency thinking. It makes sense to prioritize restoration 
in a forest type where we have a good understanding of 
restoration needs, science and practices. It also makes sense 
to prioritize risk reduction in the right places, like the 
Wildland-Urban Interface (WUI). Unfortunately, the pilot 
program goes down the wrong road in its use of an emergency 
circumstances framework for planning and implementing projects. 
The proposal authorizes the designation of preemptive emergency 
treatment zones where the normal rules for NEPA and judicial 
review don't apply. This may be unworkable.
    First, we don't think this scheme can be effectively 
applied because we simply don't have the scientific ability to 
predict where or when the next big wildfire will occur for the 
purposes of declaring an emergency situation. In addition, 
while we agree that grave risks to public safety warrant 
emergency response, non-imminent threats to other values do not 
justify jettisoning normal decisionmaking and judicial review 
standards.
    We also oppose the inclusion of the unrelated Tongass 
transition provision in a wildfire policy bill. The provision 
blocks a needed transition out of controversial old growth 
logging and toward a more diverse and resilient regional 
economy. It is inappropriate for Congress to upset a robust 
planning process when 165,000 individuals and organizations 
have participated in that effort. The Forest Service has the 
information to proceed with the plan amendment and now is the 
time for transition.
    Thanks.
    [The prepared statement of Mr. Nelson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    The Chairman. Thank you, Mr. Nelson.
    Mr. Nichols, welcome.

 STATEMENT OF ERIC NICHOLS, PARTNER, ALCAN FOREST PRODUCTS AND 
                        EVERGREEN TIMBER

    Mr. Nichols. Thank you for the opportunity to speak today.
    I've spent 40 years, the last 40 years, in the private side 
of the timber industry here. Twenty-five of those years have 
been in Alaska, the last 14 years as owner of timber companies 
in Alaska, buying and harvesting timber sales from land owners, 
including the U.S. Forest Service.
    The industry today is on the verge of going away due to 
lack of consistent timber supply. All federal and state timber 
sales are being delayed with litigation or appeals by 
environmental groups opposed to all timber harvest.
    The U.S. Forest Service, the timber industries, the 
communities of Southeast Alaska and even some conservation 
groups, all say they want a timber industry. The problem is you 
cannot have a viable timber industry without a land base for 
growing and harvesting timber.
    Prior to 1976, five million acres of the Tongass was 
managed for timber. By 1980, this was reduced to three million 
acres. The 2008 plan further reduced it to 663,000 acres, and 
now the new plan amendment will take it down to 251,000 acres 
of young growth forest. I was told by a conservation person, we 
do not have the timber available today because we cut it all.
    There are 16.8 million acres on the Tongass. Commercial 
grade forests make up 3.6 million acres. Four hundred twenty 
thousand acres have been previously harvested, and I think my 
math is pretty correct that we have 3.2 million acres of old 
growth timber remaining in the Tongass.
    The plan of the amendment will restrict the industry to 
251,000 acres of young growth and a small volume of old growth 
for niche markets. This is seven percent of the commercial 
timber acres and a little over one percent of the Tongass 
National Forest.
    The Forest Service and I think the State of Alaska have 
done a very good job in protecting our tourism. We have over 
one million people a year coming to Ketchikan on cruise ships, 
our salmon runs are strong with the fishing industry doing very 
well. We have no endangered species in the forest. But we have 
a timber industry with one small sawmill, four timber 
harvesting companies left and a handful of micro sawmills.
    Our rural communities are not doing well. From 2000 to 
2014, 22 of the 32 communities in Southeast Alaska have lost 
population. The plan amendment will forever change the timber 
industry in Southeast. Once it is in place it never gets better 
for the industry, only more restrictions as time goes forward 
so it cannot be undone. The plan has to work or there will be 
no timber industry.
    So to have a viable timber industry we have to have a 
consistent supply of economically viable timber sales. It's 
pretty simple, but not when you have declining land base for 
growing and harvesting timber and a rugged remote area with 
high cost and now only market commodity product to sell.
    My issues with the U.S. Forest Service. It does not know 
how many of the 250,000 acres of young growth we can harvest 
economically or legally. When we look at the Tongass, we look 
at the fall down acres. With the 250,000 acres we have changing 
regulations from when this was cut originally.
    We lose lands to visual constraints, additional fish 
streams will be found, carstone limestone islands will have to 
be protected, overly steep slopes cannot be cut a second time, 
additional protection for wildlife. We're also going to get 
fall down to do the economic viability, small isolated patches 
of timber suppress small timber stands, high elevation, high 
real costs and oil decreased.
    My fear is with the significant number of acres lost to 
fall down and especially in the old age class stands that we'll 
harvest with very few restrictions. My fear is the timber 
industry cannot be feasible with this amendment so it's best to 
finish the cruise, rerun the miles and see how much actual 
sustainable economic timber will be available.
    I would like to finish my testimony with the words from 
President Theodore Roosevelt who signed the legislation 
creating the Tongass National Forest. This is what he had to 
say about forest policy. ``You can never afford to forget for a 
moment what is the object of a forest policy. That is not to 
preserve the forest because they are beautiful, though that is 
good in itself, nor because they are refuge for the wild 
creatures of the wilderness, though that is good in itself. But 
the primary objective of our forest policy, as a land policy of 
the United States, is the making of prosperous homes.''
    Government legislation, rulemaking and administration of 
our national forest no longer resembles what these national 
forests were created for and set aside for management by the 
government. Our land management is broken and not serving the 
people well. It has to be fixed by sound forest management and 
not politics.
    Thank you for your time.
    [The prepared statement of Mr. Nichols follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Nichols, we appreciate it and 
appreciate your traveling a long way.
    Mr. Pimlott, welcome.

 STATEMENT OF KEN PIMLOTT, DIRECTOR, CALIFORNIA DEPARTMENT OF 
                  FORESTRY AND FIRE PROTECTION

    Mr. Pimlott. Thank you.
    Good morning, Chair Murkowski, Ranking Member Cantwell and 
Senator Daines. Thank you for the opportunity to testify today 
on not only on behalf of California but my peers around the 
country through the National Association of State Foresters.
    As California's Chief of CAL Fire and State Forester, we're 
responsible for the protection of over 31 million acres of 
wildlands within the state. That's about one-third of the land 
base in California, and as we know is going currently on right 
now in the state, significant fire challenges.
    While it's no different across the West and the rest of the 
country, although land bases may differ, net 2014 statistics 
indicate that 80 percent of the fires fell within the 
jurisdictions of state and private lands and that of the state 
forestry agencies. So the states around the country, no 
different than in California, play a significant and key role 
in dealing with fire and forestry issues.
    I think the Committee obviously has a very clear handle on 
the fire and resource management and forest health challenges 
in the country. That's been clearly indicated this morning.
    Again, I will just emphasize that in California, the fire 
problem and forest management problem is real. As I speak we 
have five major fires now burning in the state and 4,600 
firefighters on the fire line. Just in the last week we've 
responded to over 250 fires and that's 2,000 fires just since 
January 1st.
    We're still within a significant drought which has gone on 
for the last five years, and like we talked about earlier in 
this hearing, record kinds of fires. We talked about that in 
Washington State. We've seen that in Colorado. California, just 
last year, had two of the top ten most damaging fires in the 
state's history.
    The fire challenge, the fire problem, is only getting 
worse, not just drought, changing climate, unmanaged or under-
managed forests throughout the state both on federal and 
private lands are significantly, excuse me, contributing to the 
challenges that we're facing.
    When fires burn, 20,000 acres burn in just five hours. 
Those are the conditions that we are facing and will continue 
to face as we go into, again, another potentially disastrous 
fire season.
    In California this is exemplified now by significant tree 
mortality. Secretary Vilsack announced yesterday that over 66 
million trees in the central and southern Sierra have now 
succumbed to epidemic levels of insect mortality. We've seen 
this throughout the West in a number of Western states and now 
California has taken that challenge exponentially with multiple 
counties declaring localized or county level disasters. And 
then in October of last year, Governor Brown declared a 
statewide emergency proclamation to deal with this disaster.
    We're looking at this and collaborating through multiple 
means trying to address immediate life safety threats, but it's 
involving landscape level projects and activities with partners 
at all levels of government. Using tools such as the Good 
Neighbor Authority under the Farm bill allow us to reach across 
boundaries, to collaborate and get the biggest bang for the 
buck and leverage everything that we have to get the most work 
done and to make the biggest difference that we can.
    Fixing wildfire funding is key to all of this. As Under 
Secretary Bonnie indicated this morning and others, we continue 
to borrow money from other program areas that are critical to 
getting ahead of the problem. While we must maintain a robust 
response capability across this country, we can't under fund 
our federal agencies on the front end, we must ensure a strong 
response. The back end of this is when they continue to take 
money to keep that going from other programs, we're only going 
to continue to perpetuate lack of good forest management, lack 
of reducing fuels and continued fires like we're seeing right 
now.
    Discussions through this legislation, others regarding 
NEPA. Right now, California has over 125,000 acres of actually 
NEPA-ready projects in just three impacted national forests. We 
need the ability to leverage additional funding to get more 
work done in those areas and certainly would like to go forward 
and look at opportunities, working through the NEPA process, to 
see if we can't do more work and work through NEPA to get more 
work done and have the capacity to do just that.
    Looking at the Pine Pilot. It is critical. Much of the area 
being impacted in California are mixed-conifer forests. A 
significant component of those forests are ponderosa pine. We 
welcome the opportunities to look at a pilot project that 
addresses that.
    Fire risk mapping is also critical. We've worked as a 
state, along with many other states, in addressing and using 
that information to develop hazard maps and to identify land 
use planning potential. So certainly look at the opportunity to 
work together on that.
    And last, I will close with the, just recognizing that 
fires know no boundaries. So we, as organizations and first 
responders, state, federal or local should know and need to 
know, no boundaries.
    California learned that a long time ago when we had 
separate communications frequencies, separate terminology and 
we're working together. So it's very true, looking forward, 
working on joint process to look at processes and criteria that 
are agreed to by all agencies when we're sharing resources 
across boundaries.
    Thank you.
    [The prepared statement of Mr. Pimlott follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Director Pimlott.
    Again, thank you to each of you for your contribution 
before the Committee today.
    I will yield first to Senator Daines.
    Senator Daines. Thank you, Chair Murkowski, Ranking Member 
Cantwell, for having this hearing today.
    Julia and Peter, welcome as two fellow Montanans. It is 
good to have you both here.
    Julia, I wanted to echo your testimony about how 
devastating excessive regulations and unending litigation has 
been to Montana's wood products workforce and the health of our 
forests. My earlier comments regarding this devastating news 
coming from Weyerhaeuser last night, I think, really 
illustrates what is going on in Montana.
    Your observation that we are harvesting only 5 percent of 
dead trees and 4.5 percent of the annual growth is startling, 
especially considering that nearly seven million federally-
controlled acres in Montana are at high risk for wildfires.
    My question is could you elaborate on how increasing active 
management is critical to both protecting wood product jobs 
and, importantly, reducing the risk of catastrophic wildfires 
in Montana and across many parts of the West?
    Ms. Altemus. Thank you for that question, Senator Daines, I 
would be happy to address it.
    Increasing management in Region One, specifically Montana, 
so the economic analysis for a million board feet is usually 11 
jobs are created for every one million board foot that's 
harvested. Now you can't just multiple that by, you know, the 
board feet that are or the inventory that's sitting on the 
landscape because a lot of those loggers are going to--they're 
going to their work and they're going to move to the next 
project and do the work. But it would impact hundreds of jobs. 
We're usually short, you know, 60 to 80 million board feet of 
timber a year. Just increasing it 60 to 80 million board feet, 
we would raise the capacity of the remaining mills to 100 
percent when right now, as I said, they're running at 50 
percent, one shift 60 percent. So, it's not a lot that we need. 
But it's critical that that raise is critical. So that 
addresses just the economics.
    But as far as getting at that seven million acres of dead 
and dying, it will continue to grow. It will continue to burn, 
and we will continue to eat up a majority of the fire budget if 
we don't address those issues.
    Senator Daines. So you have looked at the discussion draft. 
What provisions do you believe would be most helpful?
    It is already management and thereby creating the jobs, 
improving habitat, protecting the watersheds. I mean, we work 
with a lot of conservation groups, wildlife groups, the Rocky 
Mountain Elk Foundation, others, that want and are pushing for 
these kind of revisions. What do you think is most helpful?
    Ms. Altemus. Thank you, Senator.
    Well, again, you know, impediments to a success are 
certainly the capacity of the Forest Service. So they're under 
Title I, as far as the fire borrowing goes. If there were 
additional monies of unspent fire money that we could put back 
into hazardous fuel reduction projects, that would be very, 
very helpful. That's number one.
    Under Title III, some of the provisions, like the no 
action/action provision is, I believe, important. It works 
under HFRA. It works within the collaborative context as well 
so that one is important. I would suggest and in part of our 
written testimony is to add provisions under 106 of HFRA as far 
as balance of harms. That has been proven in court. That's not 
part of the discussion draft, but I would encourage you to look 
at that and add it.
    I'm not sure about the pilot. I mean, in Montana we do have 
dry pine, you know, we have mixed conifer and dry, mountain 
ponderosa pine forests, but honestly we have a lot of lodgepole 
pine. That's where the majority of our issues are. So, as I 
said in my testimony, dry forests are at risk, but wet forests 
in low frequency, but high intensity fires are also at risk. 
And so we would encourage you to think about that, changing 
those fuel loads as well.
    Senator Daines. Thanks for the input on that.
    I want to talk a little bit about litigation relief and the 
need for it.
    In your testimony you indicate that the hundreds of 
millions of board feet are encumbered by litigation. If Montana 
loggers and mills had faster, uninhibited access to that type 
of volume, roughly, how many Montana jobs could be sustained or 
possibly created?
    Ms. Altemus. Well, as I said in my testimony, just under 
litigation alone we've got about 44,000 truckloads that could 
be impacted. Not all of that is under preliminary injunction. 
Some can move forward. A lot of it is not being advertised.
    But if we could at least acknowledge that we have a 
problem, because it's been difficult for some folks in Congress 
to acknowledge or in the Forest Service to acknowledge that we 
have a problem, and then work together to find a path forward 
to resolving that that doesn't require opening up equal access 
to justice or other things.
    There's other things that we can do that I have in my 
written testimony that, I think, are good for discussion.
    But as far as the jobs, again, you can't just do that 
multiplier, but it would be probably in the neighborhood of 300 
or 400 jobs.
    Senator Daines. Right.
    Ms. Altemus. And we lost 500 last year.
    Senator Daines. Yes.
    Ms. Altemus. And we're going to lose 200 this year.
    Senator Daines. Thank you for quantifying it out.
    Peter, thanks for coming from Montana. I do appreciate your 
participation in working with the Beaverhead-Deerlodge 
Collaborative Working Group. I have been a proponent of 
collaborative efforts. Thank you for that.
    As I previously noted, there are 21 active lawsuits going 
on in Montana with 13 on projects that were developed through 
the collaborative process and nearly all of them involve groups 
that are not part of the collaborative process. They are fringe 
groups that come in here after the fact.
    Notwithstanding your concerns, I respect them, with some of 
the management proposals put forth in this draft, do you 
acknowledge that litigation is a problem in Montana and has 
undermined the work of collaboratives and has slowed important 
restoration work to our national forests?
    Mr. Nelson. Thanks, Senator.
    It's good to be around so many Montanans.
    We have challenges. We have challenges in Montana, and we 
have challenges nationally. Many of them are capacity related.
    On the Beaverhead-Deerlodge, I think, we're limited in our 
ID team's ability to go out and analyze, get projects ready. 
We've seen all sorts of capacity and resource challenges there. 
People are frustrated. I've worked with members of your staff, 
members of the Montana Wood Products Association and the Forest 
Service are frustrated. People are frustrated.
    Senator Daines. Just so you know, you work in a 
collaborative process.
    Mr. Nelson. I do.
    Senator Daines. I appreciate that. Again, we have got 13 of 
the 21 lawsuits are again--
    Mr. Nelson. Collaborative process.
    Senator Daines. Do you think litigation encumbers us?
    Mr. Nelson. The collaborative processes can lead to better 
decisions, more durable decisions.
    Senator Daines. Does the litigation encumber that?
    Mr. Nelson. Winning decisions.
    Senator Daines. Is the litigation, do you think it slows us 
down or encumbers us, the collaborative process?
    Mr. Nelson. Litigation plays a role in the system and--
    Senator Daines. So you say it does not slow us down? It is 
not slowing us down getting the collaborative projects approved 
and--
    Mr. Nelson. Compared to what may normally happen, I suppose 
it does. You could say that it slows us down. But you know 
Montanans care about their public lands. We need to keep these 
processes open. This is a challenge. We have--people are 
frustrated. I hear that from you, and I hear that. We want to 
get the work done. We're working with the Farm bill 
authorities. We have a CE moving up outside of Butte. We're 
trying to get work done. People are rolling up their sleeves. 
This is not easy. We're committed to doing this work.
    My fear is that if we come in too strong on this we're 
going to see more conflict, in fact. And so, I just have to 
urge caution.
    Senator Daines. Okay.
    Mr. Nelson. About where you're going with that line of 
questioning because caution is--
    Senator Daines. Well the disruption right now is we have 
collaborative processes. They are moving through. The 
disruption is after we have moved through long, collaborative, 
unifying processes, fringe groups come in at the end and file 
suits and basically stop all the progress we have made of 
collaboratives. That is the frustration.
    Mr. Nelson. Collaboratives have to develop winning 
solutions that are durable, based on best science and can move 
forward and be implemented. That's the strength of the 
collaborative process.
    Senator Daines. I am way over my time.
    Mr. Nelson. It allows us to do that.
    Senator Daines. I yield back to the Chairman.
    Thank you.
    The Chairman. Senator Daines, I allowed for additional time 
here.
    Mr. Nelson. I appreciate the exchange.
    The Chairman. I think the bottom line is that litigation 
delays, and sometimes litigation is intended to do nothing more 
than delay. I think my friend and colleague from Montana sees 
that. We certainly see that in Alaska. You express frustration. 
Boy, be on the receiving end of it.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I want to thank Mr. Nelson for his comments about NEPA and 
the challenges that we would face if we made the changes that 
are in the draft, that it could lead to more complexity than we 
realize.
    I certainly understand the Senator from Montana's 
frustration because we have a lot of collaboratives that have 
worked in our state too. I want to give Senator Daines 
something before you leave, but you can--I will leave it right 
here so that we don't--okay, you can grab it right now. Thank 
you.
    I think the issue for me is this research that has been 
done on the Pine Pilot. I don't know if Mr. Pimlott or Mr. 
Nelson or Mr. Goldmark, you want to comment on--not that I am 
excluding anybody else from commenting on it, but Cal Poly 
University released some findings on how much of the fire risk 
you would reduce by reducing some of that fuel. Their number 
was so large that I don't even know how to get my head around 
it. It is pretty hard when you think about what happened in the 
Carlton Complex to think that just some fuel reduction might 
have prevented 100 million acres in one afternoon from being 
destroyed. Nonetheless, we now have some research that does 
show that this kind of fuel reduction is making an impact.
    So I wanted to hear about any of those real-life examples 
that you know about. Dr. Goldmark can talk about the Carpenter 
Road fire in Wenatchee where we made some forest improvements 
ahead of time. Mr. Pimlott, are there any of these areas where 
you have actually seen the fuel reduction work? What the 
researchers are trying to highlight in this science that was 
released by the University is that if treatments are done 
strategically, you are reducing the size of the fire. And 
knowing that the conditions are so explosive, I think this is 
what we have to aim for. And so, I didn't know if you wanted to 
give some, maybe, real-life examples of that.
    Dr. Goldmark. So thank you for that question, Senator 
Cantwell.
    We've had many large fires, as you know, in the State of 
Washington, and both the fire seasons of 2014 and 2015 have set 
new records. As a matter of fact, I have recently toured the 
Tripod fire which occurred in 2006, a 180,000-acre fire that 
cost $180 million to suppress. In that fire, which was a very 
large fire, as well as the Carlton fire and others where there 
has been active management before the fire, it has a 
demonstrable impact on the severity of the fire. In many cases, 
the fire doesn't even penetrate those areas that have been 
managed. It is not a guarantee, but the single best thing that 
we can do in advance of fire is to do the fuel reduction work 
and the prescribed fire work to take away the fuel that the 
fire would need to pass through that forest.
    So, I'm wholly supportive of the Pine Pilot Project. I 
think restoration is one of the critical steps that we must 
take to help make our forests more resilient.
    Senator Cantwell. Do you have an idea of what some of those 
restoration projects might have done? It is hard to categorize, 
but they are coming up with a pretty big number. They are 
saying you could have as big as a 50 percent reduction in the 
fire by doing the right kinds of treatment. Is that something, 
Mr. Pimlott, that you think?
    Mr. Pimlott. I think it is certainly a possibility, and I 
think the language in the discussion draft really is an 
opportunity for us to test that model.
    I think absolutely, having been a Forester for 30 years 
now, preaching active engagement in forest management. We've 
got several examples in the Sierra where thinning from below, 
thinning that reduces the number of smaller trees in the forest 
stand, has actually kept the fire to a lower intensity, which 
not only protected the forest, but communities.
    And earlier I failed to show a slide, but and you may have 
trouble seeing it from up there, but a picture tells a thousand 
words.
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    This is the Central Sierra a year ago and just this spring, 
and what you're seeing is tree mortality. Almost an entire 
mixed-conifer, ponderosa pine stand completely decimated, not 
by fire yet, by insect mortality.
    And so, forest management, particularly thinning and this 
pilot project, can have us start looking. It's not just 
reducing the fire intensity, but it's active forest management 
for forest health which reduces the impact and potential for 
epidemic insect outbreaks, 
et cetera. So absolutely engaging in forest management, 
including the pilot project. We'd certainly love to see some 
pilot projects in California.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    We have gone over the time that I had promised we would be 
adjourning the panel, but I do have a question for Mr. Nichols 
and this relates to the TAC recommendations relating to the 
inventory.
    You served on the Tongass Advisory Committee, so I am going 
to rely on you for a little background on how the transition 
and the inventory, really, came together within those 
discussions.
    In my questioning to Mr. Bonnie I made clear, or read the 
statement from the TAC, about the inventory being the number 
one priority. He seems to suggest, and actually he did state, 
that the Forest Service will have all the data that it needs to 
guarantee the success, apparently, of a young growth transition 
by the end of this summer's survey on Prince of Wales and 
indicated that there can be this parallel track, if you will, 
that the inventory has begun. We appreciate that, but that it 
can go alongside the forest plan amendment process.
    Can you please speak to why it was important that the TAC 
recommend a comprehensive stand level inventory? Also, further 
to the point, has anything changed since January 21 when that 
statement was pretty conclusively made that it remains the 
number one priority? Then is it possible that the Forest 
Service will have all that it needs in terms of an inventory 
when it completes the review this summer?
    Mr. Nichols. You know, I spent 18 months on the TAC, so it 
seems like a lifetime to me, but basically there were two 
pieces to that.
    The first piece was we knew there was going to be fall down 
acres. When you look at the old growth stands they lose about 
60 percent of the stand's acres when they try and put a timber 
sale together. So we knew we would have some acres lost in the 
young growth. We'd spent some time in the field with a fish 
biologist. She showed the streams that were logged through in 
the beginning that will have to be protected. So we know we're 
going to get some fall down. So we knew in our models we could 
not get an answer from the Forest Service on what kind of fall 
down to use. So in our modeling that we did, we did no fall 
down acres. So we used the 250,000 acres the Forest Service 
has. That was the first point.
    The second point was the conservation community was pushing 
hard for absolute dates on ending old growth, and we couldn't 
give it to them. We did not have the information because one of 
the things that we agreed to in this TAC was that for every 
acre of young growth we would stop harvesting acre old growth. 
But that went vice versa too. The vice versa was that for every 
acre of young growth you did not get you had to do more old 
growth. So for the first time there was, kind of, a leverage 
there on both sides of that there.
    So the TAC, when Bonnie came to Ketchikan, the TAC knew we 
had to have a better inventory. There just was not enough 
information there.
    I attended a meeting here last week. The Forest Service has 
50,000 acres of information on 250,000 acres. They're blowing 
that up over the other 250,000 acres. The land is highly 
variable. They will tell you it's highly variable. They do not 
have enough information.
    The TAC position was that we needed that information from 
an inventory because we had to make final decisions on when to 
stop the old growth harvest. And we just couldn't do that. We 
just did not have enough information to make that decision.
    The other thing is the acres left in this plan amendment 
are so low that if we lose part of those acres to this fall 
down or to the uneconomic ability, there will not be a timber 
industry. There will not be enough acres left of harvestable 
timber to be able to maintain any kind of industry in Southeast 
Alaska.
    The Chairman. So that is the reason why we have to get this 
inventory correct?
    Mr. Nichols. You only have one time. We can't undo it.
    As you guys have seen in all this federal legislation, it 
never gets undone. So if we make a mistake now, there will be 
no timber industry. The communities in Southeast Alaska will 
suffer greatly because of it.
    The Chairman. So the TAC continues to recommend a 
comprehensive stand level inventory. That has not changed?
    Mr. Nichols. That has not changed a bit.
    The Chairman. And as far as this parallel track that has 
been suggested that we can move forward with the forest plan 
amendment process while at the same time conducting an 
inventory. Does that work or not work?
    Mr. Nichols. Well, from the industry side what I see out 
there today is that the TAC made some very strong 
recommendations. The Forest Service only took part of those 
recommendations. They did not take them all. The timber sales 
they're working on today do not follow the TAC recommendations, 
so there was going to be a downfall in the amount of young 
growth available as they don't intensively manage or 
intentionally harvest these stands. So what we see since the 
TAC recommendation today is that the Forest Service has still 
not implemented the on the ground, the recommendations that 
we've made, and those are difficult recommendations. And that's 
what's going to determine whether this thing will work or not. 
But right now we do not see where there is a will to get the 
recommendations in place.
    The Chairman. Okay.
    Well, we are going to continue to push to make sure that we 
have a firm understanding.
    It has been suggested that somehow or other my motivation 
is to delay the forest plan amendment, delay it indefinitely. 
My intention is not to delay the plan. My intention is to make 
sure that that plan is based on the true facts on the ground, a 
true, honest understanding as to what our inventory is that 
will allow us to base the decisions on good, grounded science 
that will allow us to get it right because, as you have 
suggested, we have got one opportunity to get it right.
    I appreciate the work that you and others have done on the 
TAC. I know it is not easy. I know it has been difficult, but I 
appreciate the good work. I also appreciate you recognizing 
that, in fact, all the recommendations from the TAC were not 
put into play. Again, thank you for what you have done in 
helping to advance these very important issues.
    With that, ladies and gentlemen, I appreciate the extra 
time that you have given us and the Committee as well.
    As we continue to work to refine this draft proposal we 
would certainly welcome and encourage your continued input if 
members have questions for the record. We will make sure that 
we get them out to you quickly.
    Again, thank you for being here. The Committee stands 
adjourned.
    [Whereupon, at 12:17 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
